<html>
<title> - INTERNATIONAL CHILD ABDUCTION: BROKEN LAWS AND BEREAVED LIVES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    INTERNATIONAL CHILD ABDUCTION: 
                     BROKEN LAWS AND BEREAVED LIVES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2011

                               __________

                           Serial No. 112-72

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
66-530                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. David Goldman, father of child abducted to Brazil and 
  returned in 2009...............................................     6
Ms. Sara Edwards, mother of child abducted to Turkey.............    26
Mr. Carlos Bermudez, father of child abducted to Mexico..........    32
Mr. Michel Elias, father of children abducted to Japan...........    52
Mr. Joshua Izzard, father of child abducted to Russia............    59
Mr. Colin Bower, father of children abducted to Egypt............    67
Ms. Patricia Apy, attorney, Paras, Apy & Reiss, P.C..............    80
Ms. Kristin Wells, partner, Patton Boggs LLP.....................    94
Mr. Jesse Eaves, policy advisor for children in crisis, World 
  Vision.........................................................   109

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. David Goldman: Prepared statement............................    13
Ms. Sara Edwards: Prepared statement.............................    29
Mr. Carlos Bermudez: Prepared statement..........................    35
Mr. Michel Elias: Prepared statement.............................    56
Mr. Joshua Izzard: Prepared statement............................    64
Mr. Colin Bower: Prepared statement..............................    70
Ms. Patricia Apy: Prepared statement.............................    86
Ms. Kristin Wells: Prepared statement............................   102
Mr. Jesse Eaves: Prepared statement..............................   112

                                APPENDIX

Hearing notice...................................................   126
Hearing minutes..................................................   127
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   128
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Material submitted for 
  the record.....................................................   129


     INTERNATIONAL CHILD ABDUCTION: BROKEN LAWS AND BEREAVED LIVES

                              ----------                              


                         TUESDAY, MAY 24, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2203 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and I want 
to thank each and every one of you for joining us this 
afternoon to focus on the deeply troubling and growing problem 
of international child abduction, which occurs when one parent 
unlawfully moves a child from his or her country of residence, 
often for the purpose of denying the other parent access to the 
child. It is a global human rights abuse that seriously harms 
children while inflicting excruciating emotional pain and 
suffering on left-behind parents and families.
    International child abduction rips children from their 
homes and lives, taking them to a foreign land and alienating 
them from a left-behind parent who loves them and whom they 
have a right to know. Their childhood is disrupted, in limbo, 
or sometimes in hiding as the taking parent seeks to evade the 
law or to conjure legal cover for his or her immoral actions. 
Abducted children often lose their relationship with their mom 
or their dad, half of their identity, and half of their 
culture. They are at risk of serious emotional and 
psychological problems and may experience anxiety, eating 
problems, nightmares, mood swings, sleep disturbances, 
aggressive behavior, resentment, guilt, and fearfulness. As 
adults, they may struggle with identity issues, their own 
personal relationships, and parenting.
    In 1983, the United States ratified the Hague Convention on 
the Civil Aspects of International Child Abduction to try to 
address this serious issue. The Convention creates a civil 
framework for the quick return of children who have been 
abducted and for rights of access to both parents. Under the 
Convention, courts are not supposed to open or reopen custody 
determinations, but rather decide the child's country of 
habitual residence--usually where the child was living for a 
year before the abduction. Absent extenuating circumstances, 
the child is to be returned within 6 weeks to his or her 
habitual residence for the courts there to decide on custody or 
to enforce any previous custody determinations. This framework 
is based on the premise that the courts in the country where 
the child was living before the abduction have access to 
evidence and witnesses and are the appropriate places for 
custody determinations to be made. However, even though more 
than 80 countries have signed the Hague Convention, the return 
rates of American children are still devastatingly low. In 
2010, 978 children were abducted through Hague Convention 
signatory countries, and 360 children were returned. That is 
only 38 percent.
    Some Hague signatories are simply not enforcing return 
orders. The State Department's 2010 Hague Convention compliance 
report highlights 15 countries, Argentina, Australia, Austria, 
Costa Rica, France, Germany, Honduras, Hungary, Israel, Mexico, 
Romania, South Africa, Spain, Switzerland, and Turkey, for 
failing to enforce return orders. Many other countries, 
Bermuda, Brazil, Bulgaria, Burkina Faso, Honduras, Mexico, the 
Bahamas, and St. Kitts, and Nevis, are failing to abide by the 
Hague Convention provisions concerning the central authority 
charged with implementing the Convention, the performance of 
their judiciaries in applying the Hague Convention, and/or the 
ability or willingness of law enforcement to ensure swift 
enforcement of orders issued under the Convention.
    Some taking parents will try to drag out proceedings for so 
long that the child reaches the age where a court will consider 
the child's wishes regarding a return. And David Goldman, 
certainly, and others have experienced that very infamous 
tactic. Tragically, abducted children are often the victims of 
parental alienation, where the taking parent has filled the 
child's head with lies about the left-behind parent. If the 
child was not of an appropriate age to be heard when the child 
was abducted, the taking parent should not be enabled to drag 
out proceedings or motivated to psychologically manipulate a 
child, harm a child, or manipulate that child to testify that 
he or she does not want to return to the left-behind parent. 
Countries that permit these practices encourage the child abuse 
known as parental alienation.
    In 2010, the United States lost 523 children to countries 
that have not signed onto the Hague Convention and received 
back 228 of those kids, a return rate of some 45 percent. Japan 
has by far the worst record of all. It has not issued and 
enforced the return order for a single one of the more than 321 
American children abducted there since 1994, when the 
recordkeeping began. Japan is currently protecting the 
abductors of 156 American children under the age of 16. You 
will hear from some of their left-behind parents at this 
hearing.
    Japan announced this week that it is introducing 
legislation needed to ratify the Hague Convention. However, I 
am very concerned that Japan will add exceptions and 
reservations to its ratification that would render its 
ascension to the Convention meaningless. And, tragically and 
unbelievably, Japan has already indicated that its approval of 
the Convention will be meaningless to the 156 American children 
already abducted to Japan. The Hague Convention is not 
retroactive unless Japan makes it retroactive.
    I and members of this committee strongly urge Japan not to 
ignore the abducted children already within their borders. Just 
this year, the United States lost 31 more children to Japanese 
abduction. I can assure Japan that the hundreds of left-behind 
American parents whose children are in Japan are not going away 
if Japan signs the Hague Convention. Japan will not move past 
its reputation here in the Congress and elsewhere as a safe 
haven for child abductors until Japan returns all abducted 
children. These 156 American children are bereaved of one of 
their parents. They cannot be ignored, nor will they be 
forgotten.
    In the last Congress, I introduced legislation to impress 
upon both Hague and non-Hague countries alike that the United 
States will not tolerate child abduction or have patience with 
countries that hide abductors behind the Hague Convention. 
Yesterday I reintroduced a bill, the International Child 
Abduction Protection and Return Act of 2011. The new bill, H.R. 
1940, will empower the President and the Department of State 
with new tools and authorities to secure the return of abducted 
American children.
    Under this new proposed law, when a country has shown what 
we call a ``pattern of non-cooperation'' in resolving child 
abduction cases, the President will be able to respond 
decisively with a range of actions and penalties, 18 in all. I 
included penalties that we included back in 2000 in the 
Trafficking Victims Protection Act. I am the prime author of 
that legislation. It has worked in combatting human 
trafficking. It will work in combatting international child 
abduction.
    We also included language taken right from the 
International Religious Freedom Act, enacted in 1998, which 
went through my committee. It was a bill that was sponsored by 
our good friend and colleague Frank Wolf. That, too, has worked 
to promote international religious freedom by having a penalty 
stage, without which we can admonish all we want, but we have 
to have something, carrots and sticks, in order to ensure 
compliance.
    Based on past experience, as I said, we know that penalties 
get the attention of other governments, and we know that they 
work.
    Also reflecting my anti-trafficking legislation, H.R. 1940, 
will raise the profile of the international child abduction 
issues by appointing a new Ambassador-at-Large for 
International Child Abduction to head a new office charged with 
helping left-behind parents secure the return of their children 
and to collect detailed information and report on abducted 
children in all countries. This has to be taken to a much 
higher level, and we have to put the full force of penalties 
and the ambassadorial rank of this new position behind that 
effort.
    The growing incidence of international child abduction must 
be recognized for the serious human rights violation that it 
is. And decisive, effective action is urgently needed. Our 
hearing this afternoon will help us all to understand better 
the impact that child abduction has on children, parents, and 
entire families and provide us with the opportunity to explore 
the actions needed to end it.
    I would like to now yield to my good friend and colleague 
Don Payne, the ranking member of our subcommittee, for any 
comments that he may have.
    Mr. Payne. Thank you very much. Let me begin by commending 
you for calling this timely hearing. As many of us know, 
tomorrow is National Missing Children's Day. And it is fitting 
that we examine a problem of child abduction in an 
international context.
    Losing a child is a terrifying experience for any parent, 
regardless of where they live, anywhere in the world. 
Unfortunately, reported cases of international child abduction 
are on the rise. In fact, the number of cases involving a child 
kidnapping kidnapped out of the United States into countries 
that signed the Hague Convention doubled since 2006, 2 times 
more in simply 5 years.
    The troubling trend of increased international child 
custody disputes is likely to deteriorate as our society 
becomes more interconnected and mobile. These heart-wrenching 
cases warrant congressional vigilance and action. Currently the 
Hague Convention on the Civil Aspects of International Child 
Abduction, with 85 participating countries, is a principal 
mechanism for enforcing the return of abducted children.
    Though imperfect, the Convention has successfully resolved 
many abduction cases and pressed signatory countries to 
properly return children to their rightful residence. Through 
the Convention, for example, the United States Government 
successfully returned 262 children, abducted to or wrongfully 
retained, in the United States in 2010 alone.
    Nevertheless, as all of our witnesses will testify today, 
key challenges remain. For example, the Convention's available 
remedies do not apply to non-signatory countries, which leave 
parents, like my witness Colin Bower, with limited legal 
resources and support. Colin, I thank you for being here and 
willing to share your distressing personal story and providing 
us with insight on the hardship and difficulties of regaining 
children abducted to Egypt, a country that chose not to 
participate in the Hague Convention.
    Many here in Congress are concerned with your case, 
including my friend Congressman Barney Frank, who is here in 
the audience--and I'm sure the chairman will invite him to come 
forward and sit on the panel if he chooses--who along with my 
colleague Mr. Smith introduced a resolution calling on Egypt to 
return your children.
    I want to thank all of the parents here today for sharing 
their stories with us. Furthermore, the Convention promotes the 
prompt return of abducted children. Long delays are often and 
still too common. We are not satisfied. And often parents of 
abducted children still face protracted legal battles with 
potentially prohibitive legal costs.
    Although international parental child kidnapping is a 
Federal crime in the United States, the Convention also fails 
to impose any criminal sanctions on the abducting parent, 
despite the serious danger such action poses to the mental 
well-being of the child.
    The International Parental Child Abduction Deterrence Act 
of 2009, introduced by my colleague from New Jersey, 
Representative Rush Holt, which I co-sponsored, is designed to 
deter potential foreign national parental child abductors by 
increasing the potential penalties associated with such 
abductions. Proposed penalties against the parental abductors 
including freezing financial assets of foreign nationals within 
the United States' jurisdiction, and revoking or denying their 
visa eligibility to the United States.
    Ms. Wells, I look forward to your analysis of the 
Convention, the opportunity for improvement, including U.S. 
legislative options.
    As we reflect on the risks abducted children face 
internationally, I would like to further draw special attention 
to Africa, where at times we governments through our legal and 
judicial systems and widespread poverty prevent adequate 
response to child abduction and trafficking cases and leave 
children especially vulnerable. Globally children in conflict, 
post-conflict, and natural disaster crisis are especially at 
risk for child abduction or its pernicious counterpart: Child 
trafficking.
    In some African countries, like Sudan and regions in that 
area, such as the Sahara countries in northwest Africa, 
abduction into slavery remains a horrendous practice. Child 
abductions between ethnic factions in the Sudan conflict, and 
especially of Dinke and Nuba children to the North from the 
South, speak to the enhanced vulnerability children face during 
conflict. As a matter of fact, many of us got involved 
initially in the Sudan crisis, even before war really broke 
out, because of the abduction of children. And they were being 
sold into slavery.
    In other conflicts, such as those in Somalia and Central 
African Republic, amongst others, children are still at risk 
for abduction and forcible conscription as child soldiers. 
Scandals, such as the case of French aid workers from Zoe's 
Ark, attempting to remove Chadian children, whom they falsely 
claimed were often Sudanese refugees when arranging for 
adoption abroad, for that of the Americans from the Southern 
Baptist missionary, who attempted to remove Haitian children 2 
weeks after the devastating earthquake, also false claimed to 
be orphaned, remind us of the need to ensure that children are 
protected in poor and especially in post-conflict and post-
disaster areas.
    Mr. Eaves, I look forward to your testimony on the risks 
children face in such situations and how we can work to protect 
children from abduction and trafficking when they are in the 
most vulnerable states.
    And so I look forward to hearing the witnesses. And, with 
that, I will yield back the balance of my time.
    Mr. Smith. Thank you very much.
    We have two rollcalls on the floor. So we are going to take 
a very brief--we are almost out of time on the first. So we are 
going to run over, vote, vote on the second one, and come right 
back and reconvene the hearing. So we stand in recess pending 
the outcome of those votes.
    [Brief recess.]
    Mr. Smith. The subcommittee will resume its sitting, and I 
would like to introduce the witnesses to the subcommittee, 
beginning with Mr. David Goldman, who is the father of Sean 
Goldman, who was born in the Red Bank in 2000 and was abducted 
to Brazil in 2004. Mr. Goldman spent 5 arduous years devoting 
enormous amounts of time and financial resources and had a 
great number of people supporting him in the community to 
secure the return of his son.
    In December 2009, I had the extraordinary privilege of 
being with David and Sean when they were finally able to return 
to the United States. Mr. Goldman recently published a book 
about his ordeal entitled ``A Father's Love: One Man's 
Unrelenting Battle to Bring His Abducted Son Home.''
    Mr. Goldman has been a trailblazer in opening the eyes of 
our country to the agony endured by left-behind parents, and I 
would say the human rights abuse of child abduction, obviously 
we have all known about it. We have worked on it, many of us, 
for many years. It wasn't until David Goldman opened the eyes 
of Members of Congress and hopefully other policymakers around 
the world that they realized just how the Hague Convention is 
often gamed by countries, in this case Brazil, where endless 
appeals can be lodged by the abducting family, so-called 
family, the abductors, the kidnappers. And, frankly, that 
process can be carried on week after week, month after month, 
year after year, precluding the return of an abducted son or 
sons or daughters or family members. He has really refocused 
and revitalized a human rights movement that he launched by his 
leadership. And I want to thank him for it.
    All of the other left-behind parents have been tenacious 
and courageous in their own right. But David's case, the 
breakthrough case I think, will help everyone else. And that is 
our, I think, the subcommittee's sincerest hope.
    Secondly, I would like to introduce Ms. Sara Edwards, who 
is the mother of a 3-year-old, Abdullah Eli Kiraz. Eli's father 
took him to Turkey in March 2010 and has since refused to 
return him to his mother. Ms. Edwards lives and works in Akron, 
Ohio and is seeking concrete assistance in navigating the 
obstacles of her fight as a left-behind parent.
    We have another witness who is on his way. He is not here 
yet. I would like to now ask Mr. Goldman if he would proceed 
with his testimony as he would like.
    Mr. Goldman. Thank you.

  STATEMENT OF MR. DAVID GOLDMAN, FATHER OF CHILD ABDUCTED TO 
                  BRAZIL AND RETURNED IN 2009

    Mr. Goldman. Let me take us back in time a little bit. Good 
afternoon, Members of Congress. I am honored for the privilege 
to testify before you today.
    For 5\1/2\ years, I walked in the shoes of the left-behind 
parent. I lived in a world of despondency and desperation, with 
a searing pain throughout my entire being. Everywhere I turned 
I saw an image of my abducted child. Sleep was hard to come by 
and never restful. If I smiled, I felt guilt.
    When I saw children, whether it was in the store, a park, 
or on television or even on my charter boat, where clients 
often take their families for a day on the water, it was more 
than painful. For the longest time it was too painful to be 
around my own family members. I couldn't even be around my 
nieces and nephews. It was too painful.
    Where was my son? Where was my child? He had been abducted. 
He was being held illegally. He was being psychologically, 
emotionally, and mentally abused. I needed to help him. I 
needed to save him. He needed me: His father. It was our legal, 
our moral, our God-given right to be together as parent and 
child.
    I did everything humanly possible, leaving no stone 
unturned, but for many years, the result remained the same. 
Sean was not home.
    Although I remained determined and hopeful, I must admit, 
the outlook for a permanent reunion with my abducted child 
often seemed bleak, at best. I felt like a dead man walking. 
The void left me a shell of the man I had once been.
    There were orders in place. There were many orders from 
U.S. courts demanding the immediate return of my child. The 
courts in Brazil acknowledged that my child had been held in 
violation of U.S. and international law. However, he remained 
in the possession of his abductors.
    Why were so many laws being ignored? Why were the abductors 
and in my case, the Government of Brazil, allowed to flagrantly 
violate international law with no consequences? Why were my 
child and over 50 other American children still in Brazil, 
another 80 or more in Mexico, and thousands of other American 
children also held illegally in various countries in clear 
violation of the Hague Convention on the Civil Aspects of 
International Child Abduction?
    It would take 4\1/2\ years, numerous court hearings, 
extraordinary work from my attorneys in Brazil and the U.S. 
(one of whom is here today, sitting behind me, Ms. Patricia 
Apy, who will testify), a tremendous amount of political 
pressure applied publicly and internally, and House, Senate and 
state resolutions for me to finally be able to visit my 
abducted son for a few short periods of time.
    My son had been abducted by my wife and her parents and 
held illegally for over 4 years. It wasn't until the tragic 
passing of his mother that my son's abduction became 
newsworthy. This finally brought it to the attention of those 
who could and would actually assist me.
    It took Congressmen Smith traveling to Brazil with me. It 
took Senator Lautenberg holding up a bill that would have given 
Brazil nearly $3 billion in trade preferences for my son to 
come home.
    Sean and I are extremely grateful for all of the assistance 
we received from supporters, elected officials, the Secretary 
of State, and the President of the United States of America. 
Nevertheless, it is extremely rare for a left-behind parent to 
be the beneficiary of this level of help. Yet, every other 
parent whose American citizen child has been abducted deserves 
the same help that I received.
    This committee must realize that if the system had been 
working properly, our Government would have had the tools 
necessary to bring Sean and all of the other abducted children 
home years earlier. It should not have required the 
extraordinary efforts of Congressman Smith and Senator 
Lautenberg. Senator Lautenberg should never have needed to 
threaten a trade bill with Brazil because that option should 
have been available to our State Department when countries 
violate laws and refuse to return abducted American children.
    As of today, there are many black and white Hague abduction 
cases in Brazil and other countries where the law is clear that 
the children must be returned. My case was the exception 
because the abducting parent had passed away, but almost always 
the abductor is still alive. These abducting parents and their 
attorneys manipulate the legal system to their advantage, 
stalling legal processes for years while our children grow up 
apart from half of their families. For these left-behind 
parents and families, time is the enemy.
    With all the assistance and support I received over 4 years 
and then another 1\1/2\ years after the death of my son's first 
abductor, on Christmas Eve 2009, Sean and I were finally 
reunited and returned home. It was nothing short of a miracle. 
After 5\1/2\ years of my son's illegal retention and documented 
abuse, he is now home, and he is flourishing.
    He will be 11 years old tomorrow, May 25. As Congressman 
Payne pointed out, his birthday, my son's birthday, is on 
International Missing Children's Awareness Day.
    Although the remaining abductors of my son have challenged 
the Brazilian Supreme Court decision that brought him home and 
continue litigation in Brazil seeking my son's return, in 
addition to filing lawsuits in New Jersey courts, he is home. 
He is happy. He is loved. He is allowed to be a child again. 
And we are father and son again.
    One thing my father said when my son and I finally reunited 
and returned home, which will always resonate within me--and 
that is how these parents and families live every day. My dad 
said, ``Not only did I get my grandson back, I got my son 
back.''
    Our family will always be so very grateful for every ounce 
of support from wherever it came. It is for this reason that I 
am here today. To do whatever I can to ensure the pleas from 
the remaining families, desperately fighting to reunite with 
their abducted children, do not fall on deaf ears, as my own 
pleas did for so many years.
    Our foundation is assisting a number of left-behind 
parents, including nine whose children remain illegally 
retained in Brazil. None of these children have been abducted 
by someone with great influence and power, like those who 
abducted my child. However, the results are the same. The 
children remain held illegally.
    Other than my son, we are aware of no other child returned 
to the U.S. by Brazil under the Hague Convention. In fact, 
since Sean's return, two U.S. cases in Brazil received return 
orders by Brazilian first-level Federal courts, which is very 
good news. However, the rulings were appealed, the children 
were not returned, and the lives of the left-behind parents and 
their children hang in the balance while every day, the 
abductors live with impunity as these cases drag on. Brazil 
continues to defy international law.
    I would like to note that Ambassador Jacobs recently 
returned from a trip to Brazil where she had gone to discuss 
international child abduction with senior Brazilian officials. 
Ambassador Jacobs reports that the trip was a success and that 
the U.S. and Brazil have established a working group, which 
will meet this summer to discuss how to speed up Hague 
applications and the adjudication of these abduction cases. 
Hopefully, real change will happen, but to be clear, the only 
way progress can be measured is by the number of American 
children who are returned.
    Right now, there are zero, zero consequences when a nation 
flagrantly violates the Hague Convention and refuses to return 
abducted children to the United States. Nations, including 
Mexico, Germany, Brazil and Japan, which finally appears ready 
to ratify the Hague Convention, discover quickly that the 
United States is all talk and no action. These countries play 
endless legal and diplomatic games with left-behind parents, 
frustrating their hopes and breaking their hearts month after 
month and year after year through endless, bureaucratic 
maneuverings. The method and the excuses may vary from one 
country to country, but the results are almost always the same. 
Children illegally abducted from the United States almost never 
come home. The current system is broken.
    In the letter inviting me to speak at this hearing today, 
the chairman states that the purpose of this hearing is to 
explore ways the U.S. can help increase return rates of 
children abducted internationally by a parent. First of all, we 
can only help increase return rates if we start with a complete 
understanding of the full magnitude of the problem, including 
the true number of American children who were abducted and 
continue to be illegally retained abroad. This is a difficult 
number to find, and it is not presented as part of the annual 
Hague compliance report submitted to Congress by the State 
Department.
    We keep hearing that the figure is around 2,800 American 
children. However, the last three annual Hague compliance 
reports prepared by the State Department show that the total 
number of abducted American children for those 3 years was 
4,728.
    These reports also show about 1,200 children were returned, 
although we weren't able to find return data for 2010. That 
would account for an increase of 3,528 abducted American 
children in those 3 years alone. And clearly there have to be 
literally thousands of American children illegally retained 
abroad whose abductions date back prior to the most recent 3-
year period.
    How are returns categorized? How were these children 
returned if they were, in fact, returned at all? Do returns 
also include cases which the State Department has closed for 
various reasons? If so, what are the criteria for closure?
    Things need to change. We need a system by which these 
abduction cases are registered and monitored by each parent's 
elected Member of Congress. We need our elected officials to 
work closely with the State Department on these cases to make 
sure that all resources and additional tools are at their 
disposal to make it clear to these countries that we want our 
children sent home.
    There is no valid reason for foreign governments to 
illegally hold American children and support international 
child abduction. This statement, however true, defies all logic 
because there is never a valid reason to break the law and 
support kidnapping. But as I testify before you today, this is 
exactly what is happening in many countries to thousands of 
American children and their families. These countries are 
breaking the law with impunity.
    The fact is very few left-behind parents will be as 
fortunate as I was in having President Obama, Secretary of 
State Clinton, Congressmen Smith, and Senator Lautenberg all 
make my son Sean's return a fundamental foreign policy goal of 
the United States. Even then, Senator Lautenberg had to put a 
hold on renewal of GSP privileges for more than 100 nations, 
including Brazil, to put the final pressure on both Brazil and 
the administration, which led to Sean's return.
    I wish every left-behind parent could have that kind of 
support in the future, but we all know that few, at most, and 
possibly none, will ever have that kind of leverage and power 
backing them. What kind of leverage will these parents be able 
to wield without the kind of personal, high-level support I was 
so fortunate to receive from the White House, State Department, 
Senate, and House to bring their children home? Not very much 
and, in fact, probably none at all.
    The Hague Convention has the force of law, but we all know 
there can be no rule of law if there is no system of justice to 
punish violators. Today Mexico, Brazil, Argentina, and a host 
of other countries face no real consequences for refusing to 
adhere to the Hague Convention requirements that abducted 
children be returned to the country where they were legally 
domiciled within 6 weeks.
    American treasure and our armed forces have safeguarded the 
security of Japan since 1945. Yet, Japan pays no price for 
refusing to return the abducted children of those American 
service members as well as ordinary U.S. citizens whose 
children have been abducted to Japan.
    This committee and this Congress must pass legislation that 
arms the State Department with real sanctions to exemplify U.S. 
intolerance for other nations which remain flagrant violators. 
Chairman Smith has authored such legislation. I support it, and 
I urge all members to do so as well.
    Similar to our anti-human trafficking laws authored by 
Chairman Smith, his bill to combat international child 
abduction provides a real and credible inventory of sanctions 
to be used to help get our kids back. If you arm our 
negotiators with such sanctions, they will immediately be taken 
more seriously. If the Department employs such sanctions 
against the worst offenders, other nations will get the message 
also, and hopefully start to return our children.
    What I do know is that if all we do today is express 
outrage and vow to do better as committees like this in both 
houses of Congress have done for more than 12 years, but fail 
to enact Congressman Smith's legislation with real and credible 
sanctions, our kids will not be returned. And we will be back 
before another committee next year with more left-behind 
families, more internationally abducted children, and no new 
mechanism of improvement.
    It is worth noting that this is the seventh hearing on this 
issue since 1998. And I respectfully ask this committee to 
think about something at the conclusion of this hearing. What, 
if anything, has changed in those 12 years since we 
acknowledged the seriousness of the problem of international 
child abduction and realized that the system was failing these 
parents back then?
    When you read the testimony, it is as if we are caught in a 
time capsule and suddenly the dates on the hearing transcripts 
don't matter. All of these stories could be told today because 
the reasons for the failures are the same. This is as much of a 
bipartisan issue as there could ever be, and I continue to 
plead on behalf of all the suffering families torn apart by 
child abduction for our Government to act now.
    My son Sean and I can never get back the time we lost 
because of his abduction, but now that he is finally home, not 
a day is lost on either one of us. Let us help the rest of the 
families and begin with providing the much-needed tools that 
the State Department so desperately needs to apply across-the-
board pressure that will ensure abducted American children come 
home.
    I would like to conclude with a letter from the left-behind 
parents of 117 American children unlawfully retained in 25 
countries. The letter is addressed to Secretary of State 
Clinton and was written for the purpose of giving a voice to 
the thousands of parents who were not invited to speak here 
today. Their presence is felt and many of them are here in this 
room today. If I may, I would like to read this letter. And if 
any of the parents or families would like to stand with me? If 
the room were bigger, you could be assured there would be more 
families. If this room were bigger, you could be assured there 
would be more parents and families, making it even hotter.

          ``Dear Madam Secretary, we, the undersigned, appeal 
        for your help as left-behind parents of 117 American 
        children who have been abducted and remain unlawfully 
        retained in 25 countries. We also represent a number of 
        U.S. service members whose children were abducted while 
        serving our country overseas. Some of these countries 
        are signatories to the Hague Convention while others 
        are not, such as Japan, where we face overwhelming odds 
        trying to reunite with our children.
          ``We and our families are devastated emotionally and 
        financially by the loss of our children and seek your 
        assistance in ensuring that the U.S. Government is 
        exercising all lawful means necessary to return these 
        American children to their home country and reunite 
        them with us.
          ``The continued retention of our children violates 
        international law, ethical norms, and human decency. 
        Put simply, our children have been stolen from us. It 
        is our legal and our moral right to be a part of their 
        lives.
          ``As our 85 cases demonstrate, there are a growing 
        number of countries willfully ignoring or abusing their 
        international obligations with regard to international 
        parental child abduction. Each of us has had 
        exasperating experiences seeking justice in foreign 
        courts, where our cases are often treated as custody 
        matters, rather than abduction cases.
          ``Oftentimes, victim parents--and court systems of 
        foreign country when it is well-known that such action 
        will likely result in a decision with custody of our 
        abducted children being awarded to the abducting party. 
        Collectively, we have limited or no contact with our 
        children, many of whom have been turned against us as a 
        result of parental alienation, a documented form of 
        child abuse.
          ``Our children lost half their identities when they 
        were ripped from their homes, families, and friends. 
        Like us parents, our children's grandparents, siblings, 
        aunts, uncles, and other family members have holes in 
        their hearts left by the abduction of their loved ones.
          ``We were encouraged by your July 2010 appointment of 
        Ambassador Jacobs as Special Advisor to the Office of 
        Children's Issues. However, in working with OCI, we 
        have experienced little improvement in the quality of 
        service provided by the Department of State and almost 
        no positive results.
          ``The current system has failed us. While our 
        children remain unlawfully in foreign lands, the number 
        of new child abduction cases from the U.S. continues to 
        grow at an alarming rate. There is an urgent need for 
        change, not only to prevent more of our nation's 
        children from being abducted across international 
        borders but also to effectuate the expeditious and safe 
        return of our abducted children.
          ``International child abduction is a serious human 
        rights violation in desperate need of your attention. 
        In our experience, all too often these international 
        child abduction cases do not appear to be addressed 
        aggressively because of the State Department's effort 
        to maintain harmonious, bilateral relations with other 
        countries or to pursue other compelling foreign policy 
        goals.
          ``The State Department's Foreign Affairs Manual on 
        the issue of child abduction highlights this point by 
        instructing OCI case workers to remain neutral when 
        handling these abduction cases. This inherent conflict 
        of interest cannot be ignored, and we need to place a 
        higher priority on the welfare of our children.
          ``We understand the necessity of maintaining strong 
        relations with other nations, but this should not come 
        at the expense of our children. Over the years, both 
        houses of Congress have held numerous hearings on the 
        issue of international parental child abduction. Yet, 
        precious little has changed as our absent children grow 
        older.
          ``On Tuesday, another group of parents will gather in 
        Washington, DC for yet another hearing, as we are 
        today. It is our hope that this will be the year that 
        Congress and the administration unite to pass new laws 
        to strengthen our nation's capacity to help the parent 
        and children victims of international parental child 
        abduction. We also hope that the State Department, 
        under your leadership, will embrace these changes to 
        finally end this gross injustice affecting thousands of 
        American children.
          ``Madam Secretary, we applaud your past efforts and 
        record on children's rights issues, but we are 
        desperate and plead for your assistance. It is long 
        past time for this great country to show leadership on 
        the issue of international parental child abduction. We 
        cannot grow complacent with each successful return, nor 
        can we forget about all the other children who are 
        being wrongfully retained abroad.
          ``We are fortunate to have strong support of groups 
        which advocate for victims of international parental 
        child abduction. However, we need our Government's 
        unwavering support and determination to bring our 
        children home.
          ``Madam Secretary, we would welcome the opportunity 
        to meet with you directly to discuss how progress can 
        be made. Please help us reunite with our children.''

And the families and the names of the children are at the end 
of the letter.
    Mr. Smith. Thank you.
    [Applause.]
    Mr. Smith. Without objection, the letter will be made part 
of the record.
    [The prepared statement of Mr. Goldman and the letter 
referred to follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Smith. Mr. Goldman, thank you for your very powerful 
testimony, for speaking and articulating the deeply held views 
of virtually everyone in this room and all of those who 
couldn't be here.
    I would note that this is the beginning of a series of 
hearings. We will hear from other left-behind parents in 
subsequent hearings--we have three panels today--because every 
single one of your situations needs to be aired, needs to have 
the full backing of our subcommittee, which they do, in order 
to hopefully, God willing, effectuate the return of those left-
behind children.
    I would like to yield to Ms. Buerkle for any comments she 
might have, the distinguished gentlelady from New York.
    Ms. Buerkle. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing on the issue that will benefit from 
more attention and more action from this Congress.
    The testimony of the witnesses is truly heartbreaking. And 
as a mother of six, I can only imagine what the pain is when a 
child is abducted by a former spouse. It is probably the worst 
nightmare divorced parents could face. And I want to applaud 
the vigilance and the persistence of the left-behind parent in 
your pursuit to get your child back.
    Reading through the testimony was eye-opening. And 
especially disturbing was the non-return rate for the 
signatories to the Hague Convention. In 2010, the return rate 
for signatories to the Hague Convention was actually 7 percent 
lower than for the non-Hague Convention countries. Last year 
alone, the State Department handled 1,501 child abduction 
American citizen and residents.
    These are our children. We must do better. This Congress 
will do better. And I assure you that with our chairman here, 
we will do better.
    Thank you. And I yield back.
    Mr. Smith. Thank you very much. I want to thank Ms. Bass 
for joining us, a distinguished member of this subcommittee as 
well.
    I would like to now recognize Sara Edwards. And please 
proceed as you would like.

  STATEMENT OF MS. SARA EDWARDS, MOTHER OF CHILD ABDUCTED TO 
                             TURKEY

    Ms. Edwards. Thank you all for the opportunity today to 
share my son's story.
    My name is Sara Edwards and I am the mother of a 3-year-old 
boy named Abdullah Eli. Eli is a beautiful, curious, and active 
little boy who gives the most wonderful bear hugs, but I have 
not held him since March 4th of 2010. And on that day, more 
than 14 months ago, Eli's father, my husband, Muhammed Kiraz, 
took Eli to Turkey for a family visit.
    Muhammed and I met while we were both in college, and we 
married in Kent, Ohio in 2003. Our son was born 5 years later, 
while I was in graduate school at The Pennsylvania State 
University. My family and parts of Muhammed's family lived in 
northeast Ohio. So when Eli was 6 months old, we moved back 
there.
    In January 2010, after 7 years of marriage, Muhammed and I 
separated. We drafted an informal shared parenting agreement to 
outline our intentions for raising our son. I believed this 
document was a framework for us to work together as separated 
parents in raising Eli. We acted under the plan, which called 
for equal custodial time of alternating weeks with Muhammed and 
I each visiting 2 days a week with Eli during each other's 
visitation.
    I fully believed that Muhammed's participation meant he was 
committed to shared parenting, as I was. Therefore, when 
Muhammed wanted to go forward with a visit to see his family in 
Turkey and take Eli, I did not object. I thought it would be 
good for them to have the support of his family during the 
separation. Muhammed provided me with the round trip tickets of 
travel itinerary and also a signed, notarized statement 
promising to return with our son.
    Muhammed and Eli were supposed to spend 2 months in Turkey. 
Now 14 months later, Eli is still not home. I certainly did not 
want to be without my son for 2 months. I knew that I would 
miss him more than I had ever missed anything, but I have 
always felt it is important for our son to know his Turkish 
family and to have exposure to that half of his culture. I 
wanted to be fair.
    I myself had traveled to Turkey five times before Muhammed 
abducted Eli. On two of those times, Eli came with me. And we 
also stayed for 2 months during the visit. It all seemed 
routine.
    I drove them to the airport on the day of the travel. And I 
was there as they went through ticketing and security. I blew 
kisses and waved to Eli as Eli waved bye-bye from Muhammed's 
shoulders. Excuse me.
    As I hold onto that happy last look at him, I now realize 
that Muhammed actively deceived me from the moment we decided 
to separate. For the first 2 weeks of their trip, I was able to 
visit with Eli daily, but on March 22, 2010, my nightmare 
began. Muhammed told me that he would only bring Eli back to 
Ohio if I declared myself an unfit parent and gave full custody 
to him. He told me he had already got a divorce and there was 
not a thing I could do about it.
    So the next day, March 23, 2010, I contacted Department of 
State Office of Children's Issues; National Crime Center, 
American Embassy; Turkish Consulate; and scores of attorneys 
across Turkey and all over the U.S.
    It is certainly now clear Muhammed never intended to bring 
Eli home. He traveled to Turkey on March 6. And on the 10th of 
March, 4 days later, he attended a divorce hearing. One day 
later, March 11, 2010, the domestic court of Nevsehir, Turkey 
granted full custody of our son to Muhammed. Muhammed got full 
custody and divorce in a domestic court in a country where we 
never resided.
    According to Turkish law, I should have been physically 
present for the divorce hearing. Not only was I not present, I 
was never informed of the case in any way. I never had contact 
at all with the attorney, Hasan Unal, who was supposed to have 
represented me. I did not even have hard evidence that a 
foreign case took place until Muhammed filed the Turkish 
court's ruling as evidence in our Ohio custody case.
    To date, Muhammed continues to ignore the Summit County 
court order to return Eli to Ohio. The judge signed the order 
adopting our original shared parenting plan in June 2010, and 
Muhammed and I are still legally married in Ohio.
    My Turkish attorney submitted my Hague petition to the 
Turkish Central Authority on January 24, 2011. I have learned 
that the Turkish authorities have investigated Muhammed's and 
Eli's whereabouts. And just this month, the Turkish Central 
Authority has opened a case on my behalf in Kayseri, Turkey for 
the return of my son. I await updates daily. I await updates 
desperately.
    Over the past 14 months, Muhammed has permitted me to visit 
with Eli by webcam, sometimes on a regular basis, but he also 
abruptly cuts off access for long periods with no warning. I 
schedule my daily life around the chance to speak with my only 
child, and my despair or elation turns upon Muhammed's whim. My 
son no longer understands or speaks English, and I struggle to 
keep up with him in Turkish, but I am so grateful to still have 
contact and maintain our bond.
    Eli was only two when Muhammed took him. And now at age 
three, I see him growing and changing drastically with each 
visit. Every day I wonder, ``Is he thinking about me and 
missing his mother the same way I am thinking about him and 
missing him?''
    Muhammed threatens to take Eli to Syria, torturing me with 
the reality that each webcam visit could again be the last time 
that I ever see Eli. Excuse me.
    The obstacles I face fighting the abduction of my son are 
great. I am essentially on my own to fight a court battle in a 
foreign country where I do not know the language or understand 
the culture. I have to be continually vigilant as I learn to 
maneuver this nightmare of uncertainty that accompanies 
fighting for my son. Excuse me.
    To date, I still do not know whether Eli has been issued a 
Turkish passport. No one can give me confirmation that Muhammed 
will be questioned if he tries to abscond from Turkey while the 
Hague case is pending. No one can give me confirmation that 
Muhammed will be questioned if he returns to the U.S. to renew 
his legal resident status. These are things we can know. These 
are obstacles that are ahead that need to be avoided. These are 
things we can do.
    I love my son more than anything in this world. And I am 
ready every minute to welcome him home. And I personally ask 
each of you now to commit to do all that is within your power 
to restore the right of our children to have relationships with 
both of their parents.
    Thank you very much.
    [The prepared statement of Ms. Edwards follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Ms. Edwards, thank you.
    [Applause.]
    Mr. Smith. Thank you, Ms. Edwards, so much for sharing 
that.
    We now welcome Carlos Bermudez, who is the father of Sage, 
who was born on May 14, 2007. Sage's mother abducted him to 
Mexico in June 2008. Mr. Bermudez has spent 3 years trying to 
bring his son to Durham, North Carolina. His presence with us 
today is testimony to the fact that he continues to do so, just 
like all of the left-behind parents who are so valiantly 
struggling to reclaim their children.
    Mr. Bermudez?

 STATEMENT OF MR. CARLOS BERMUDEZ, FATHER OF CHILD ABDUCTED TO 
                             MEXICO

    Mr. Bermudez. Thank you, Chairman Smith.
    Your amazing support of Mr. Goldman and advocacy on behalf 
of all families victimized by international child abduction is 
something that I respect gratefully. I am sincerely grateful 
for your efforts and honored to have the opportunity to address 
this committee.
    My only son, Sage, was born May 14, 2007. Like many 
parents, I spent the months preceding his birth rearranging my 
priorities toward fatherhood and anxiously awaiting his 
arrival. I knew being his father would now be the most 
important role in my life.
    In 2008, amidst increasing signs that something was amiss 
with my wife, I was having serious reservations about the long-
term viability of our romantic relationship.
    I was ultimately at a loss for what to do. While quietly 
and thanklessly maintaining a demanding work schedule to 
provide for my family, I tried not to read the writing that 
was, in hindsight, on the walls, and hoped that our problems 
would somehow work themselves out with time or keep long enough 
for me to be able to find the time and energy to deal with them 
effectively.
    Time was, however, not on my side. In June 2008, 3 years 
ago, my wife falsely claimed there was a family emergency in 
Tucson, Arizona. The emergency involved her never-before-
mentioned cousin, a 12-year-old who had gone missing himself 
and whose mother was scared to go to the authorities for fear 
of being deported.
    Despite great discomfort, I didn't object to my wife going 
to Arizona with our son to see what she could do to help during 
this dire crisis. The only alternative I saw at that time was 
to take time off from my job at IBM to care for our son alone 
while my wife went to help find her endangered cousin. Being 
the sole provider for our family that, regrettably, did not 
seem feasible to me at that time.
    My wife went to Arizona with our son for what was supposed 
to be a few days. Once there, she turned off her cell phone and 
only sent me occasional e-mail saying she was in Arizona and 
continuing to work on this family emergency.
    I didn't know what was really happening. Was my child 
suffering or in danger? The idea that my son might be in 
trouble forced me to stop refusing to ask myself the hard 
questions about what was really going on.
    As my uncertainty and fear grew, I began a frantic 
investigation into my wife's recent activity, plans, and 
associations. I traced the origin of her e-mails to find out 
she wasn't in Arizona at all. She was in Mexico. I began to see 
what she was doing and what her intentions were.
    Although my wife has never endeavored to explain to me why 
she did this, before long, I would learn that my wife had been 
having a long-running affair with one of her friends in her 
social group and had left to live with him in Nogales, Mexico.
    After significant effort, I located my son and initiated 
legal proceedings for his return under the Hague Convention. 
For good reason, the abduction convention is widely viewed as 
completely ineffective in Mexico.
    While I could discuss the various problems in Mexico that 
prevent the effective implementation of the abduction 
convention there, I feel that doing so in this forum misses the 
forest for the trees. In my own sincere opinion, our priorities 
should not be to address problems in Mexico that we have very 
little control over.
    Child abduction in Mexico from the U.S. is as much an 
American policy problem as it is a Mexican one. Inasmuch as 
Mexico is cited for failing to take appropriate measures to 
curb the international abduction of children, the U.S. 
Government is likewise criticized for not taking appropriate 
measures to protect American children or support American 
parents in their efforts to recover their internationally 
abducted children.
    The proximity and close relationship between the United 
States and Mexico makes the problems of one country the 
problems of both and, by extension, places the responsibility 
of addressing the problem on both countries. This type of 
bilateral cooperation is part of a broadening recognition of 
the fact that as neighbors, both nations share the 
responsibility of addressing our problems.
    American parents rightfully complain that they are alone in 
dealing with foreign courts and legal systems. The U.S. State 
Department has a virtual monopoly on information in such cases 
but refuses to share this information or act as a vigorous 
advocate for America's victimized families. There is an 
explicit conflict of interest between states' goal of 
maintaining pleasant bilateral foreign relations and assertive 
and effective advocacy and assistance on behalf of American 
citizens.
    Upon being assigned a case worker at the Office of 
Children's Issues and having a first conversation with him, I 
remember thinking to myself, ``My God. They have put the 
Department of Motor Vehicles in charge of recovering my son.'' 
To my subsequent horror, I have come to appreciate just how 
accurate that initial impression was. All of my entreaties for 
advice, guidance, or practical information on how I should 
proceed were immediately rebuked with claims that they could 
not provide legal advice.
    When I look back on the way that the Office of Children's 
Issues orientated me on how to handle the abduction of my son, 
I have very little doubt that they were essentially setting me 
up for the rapid collapse and failure of the Hague application 
for my son's return. By not providing me with some very basic 
and essential facts, they were effectively guiding me down a 
path that would lead to the fast resolution of the Hague 
proceedings but which would also inevitably result in the 
denial of my son's repatriation.
    Because such a result leads to the quick resolution of a 
potential diplomatic incident, they consider such results a 
form of success and view the American children's loss of their 
American family and heritage as an acceptable level of 
collateral damage. It was only through obsessive focus and 
efforts on my part that I managed to avoid the road that State 
had laid out for me.
    In 2009, the Mexican family court rendered a decision that 
blatantly got every issue of fact and law wrong. In 
contradiction of virtually every piece of evidence other than 
my wife's unilateral testimony, the judge denied my son's 
return to the U.S., claiming that my wife had been in Mexico 
since October 2007, rather than the actual date of June 2008 
and that I had waited too long to file an application for his 
return.
    In order to further prove during my appeal that my wife had 
provided criminally fraudulent testimony in Mexican courts, I 
requested that the U.S. State Department obtain copies of her 
entry and exit records to the United States. In the Kafkaesque 
conversations that ensued, I escalated this issue to the 
Abduction Unit Chief, who claimed they could not give me this 
information because it would violate my wife's privacy.
    In spite of the fact that we remained legally married and 
that she had criminally abducted our child to a dangerous Third 
World country, when I asked to then have the entry and exit 
records for my son, for whom I am the legal custodial parent, I 
was told that this was not the role that OCI played and that 
they aren't allowed to give legal advice or assistance.
    Furthermore, they said, the information I am looking for 
would be of no use to me in court because Mexico and the U.S. 
share a land border that allows for the fluid entry and exit of 
persons between the two countries. Therefore, they claimed, 
proving she had subsequently entered and exited the country 
would not prove the date of the illegal abduction and 
retention.
    I couldn't help but wonder if moments after they had just 
said to me for the thousandth time that they couldn't give me 
legal advice, why were they now giving me legal advice. So I 
asked OCI if they had a Mexican attorney, to which they replied 
that they did not. Then why were they not telling me that the 
information I was requesting was of no legal use to me in 
Mexican courts during my appeal when it was my own Mexican 
attorney telling me to obtain this information.
    At various points throughout this request, OCI told me 
something to the effect that a decision had been made in my 
case, sometimes adding that the appeal is now up to me and my 
attorney. The clear subtext of these statements was ``We 
consider your case closed. We agree with the family court's 
decision. And we aren't going to get involved or help you undo 
what we view as the acceptable resolution of your son's 
abduction case.'' No matter how unjust the resolution itself 
may be, the important thing was that an aura of legitimacy had 
been created around my son's abduction, and a potential 
diplomatic irritant had been eliminated.
    We cannot continue to offer up our abducted American 
children as sacrificial lambs at the altar of pleasant 
bilateral relations. The U.S. State Department and, by 
extension, the rest of the U.S. Government's own willingness to 
invest even the smallest amount of political capital in 
protecting our children is inconsistent with our values as 
Americans.
    Contrary to the idea that abandoning these children helps 
us achieve our other more important policy goals, our callous 
indifference to the plight of our abducted children only serves 
to bolster the argument of America's critics that our foreign 
policy is dominated by the interest of American corporations, 
rather than a fundamental respect for justice in human rights. 
America leads best when it leads by example. And I hope we can 
continue to do that. Thank you.
    [The prepared statement of Mr. Bermudez follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Bermudez, thank you.
    [Applause.]
    Mr. Smith. Mr. Bermudez, thank you very much for your 
testimony.
    Let me just begin the questioning first. And I will start 
with you. I thank you for your very blunt assessment. You know, 
I have spoken now to dozens of left-behind parents. And one 
sense that I get from some and maybe from many is a fear that 
if they are too strong with the Office of Children's Issues and 
with our own Government and even with Congress and Senate 
perhaps, there is a sense of retaliation that might come their 
way or a lack of robustness in resolving their case and somehow 
the case would be mothballed out of fear for that retaliation. 
And you spared no words in expressing your profound dismay over 
the performance of our Government. And I think that has to be 
taken to heart in a very, very meaningful way.
    No child should ever be a sacrificial lamb. You talked 
about the aura of legitimacy, Kafkaesque in terms of your 
description. And, frankly, when it comes to human rights, it 
has been my experience over the last 31 years as a Member of 
Congress who takes human rights very seriously, writes many 
laws on human rights, that very often human rights is demoted 
to an asterisk when it comes to pleasant state relationships. 
Statecraft somehow looks askance at the human rights agenda as, 
``Oh that,'' an irritant, I think, as perhaps you suggested.
    And I am wondering if any of the panelists, and especially 
you, Mr. Bermudez, because you were so strong on this, would 
like to address that issue because I--you know, these are your 
children and all of your children. And to think that you need 
to walk on eggshells out of fear that all is being done that 
should be done is done is appalling.
    We are here to serve you. All of us see it that way. The 
members who are here believe passionately in human rights. I 
know that. And I think you will see that by their comments. But 
no one in the State Department or here or on staff or anywhere 
should ever put you, any of you, ill at ease that somehow your 
concerns are not front and center and foremost in our minds.
    So, you didn't sugarcoat one iota. And I think we need to 
take it to heart, learn from that. Your bluntness is well-
received, at least by this Member. So perhaps you might want to 
speak to that.
    And let me also ask, because I don't want to take too much 
time--we have two additional panels. You know, I mentioned the 
diplomatic side very often putting this down at the bottom. We 
heard that at our previous hearing.
    We have heard that before. You know, one of the things that 
our legislation would do on child abduction would be to give 
the State Department serious tools to say, ``We are not 
kidding.'' We say to Japan, ``We are not kidding. We hold you 
to account. And we will take or impose serious measures of 
penalty if you continue this pattern of noncooperation and if 
you lead the left-behind parent astray the way you have done so 
repeatedly.'' So if you might want to speak a little bit 
further, that is up to you.
    Let me also ask, Mr. Goldman, with regard to so many 
tactics that were used against you. And the other parents might 
want to speak to this as well. But the delay is denial. You 
know, I found in your case--and I have seen it elsewhere but 
especially in your case--where you had a Hague-literate 
attorney using all of what should have been done against you--I 
am talking about the opposition's attorney--and that is to 
somehow suggest in the proceedings that the child has become so 
accustomed to their new home, the place of abduction, that it 
would be ill-advised to pull them out of that environment. It 
says to the abductors, ``Hold onto that child long enough. And 
then you can use that, too, as one of your argument points to 
continue the abduction.''
    The abduction occurs every day. It is called ``retention,'' 
but it is almost as if the abduction has been done anew each 
and every day. Every 24-hour period, that child has been 
reabducted. And so if you want to speak to that?
    And then, if I could, to Ms. Edwards, I wonder how helpful 
our Embassy in Ankara has been for you, whether or not they 
have stepped in and made this an important issue. You mentioned 
the Office of Children's Issues. If you might want to elaborate 
on that a little further?
    They should be passionate advocates. They may feel ill-
advised or ill-equipped to provide legal advice, but they have 
to fight for American parents and American children's human 
rights. And that seems to have not gotten through in the way it 
ought to. So if you perhaps want to elaborate further on that?
    So please, Mr. Bermudez, if you could begin?
    Mr. Bermudez. Yes. And just as an initial response to your 
comments, you know, you continue to demonstrate an uncanny 
intuition or knowledge of just really what this issue is about. 
And it really helps bring hope to me that there is someone in 
our Congress that really understands this and is really working 
toward addressing this problem.
    I guess to address the various parts of your comments, one 
concern I have, I have read carefully both pieces of your 
legislation that you have authored related to this issue. One 
concern that I would like to--one overriding concern, rather, 
that I would like to raise is that providing the ability of 
State to enact sanctions will be an empty half-measure if we do 
not address the fact that State has consistently demonstrated 
the lack of will to use any such tools.
    In regards to my comments, I shared the concern that 
speaking out about what I viewed as the American Government's 
complicitness in the abduction of our children--I was also very 
concerned that, in doing so, I was going to lose whatever 
assistance they were actually providing me. And, in deep 
reflection on that very idea, I convinced myself that they were 
doing nothing and that, in speaking out about these issues, I 
was effectively losing no assistance whatsoever, though this is 
something that many parents that I have spoken to have also 
expressed as their concern that, you know, if they say anything 
publicly, there will be a retaliation. And, actually, there is 
some precedent for that.
    Tom Johnson, a parent, left-behind parent and also attorney 
at the State Department; and Patricia Roush, were both denied a 
seat at the various discussions on this various topic after 10 
years ago, which kind of speaks to the longstanding nature of 
this program, 10 years ago speaking out against what they 
viewed as various inadequacies in the State Department's 
handling of this issue.
    I think that covers all the points I wanted to make. Thank 
you.
    Mr. Smith. Thank you.
    Ms. Edwards?
    Ms. Edwards. My experience has shown that the OCI can be 
characterized as professional but also extremely distant. And 
what that means is they can give an A, B, C set of steps but 
they won't commit to give me G, H, and I. And I need to know 
those in order to make my plan work properly. So it is almost 
like they feel like they have a role and the assistance is to 
make it as--I don't know how to word this. I guess I just was 
not at all satisfied knowing how the process would continue and 
that if I finished one hoop, there will be another one waiting. 
That's assured. But I didn't know how to make that plan go 
forward.
    The biggest issue now that my Hague is filed and going 
forward in Turkey is that the communication between the central 
authority there and my case representative in OCI has been less 
than full. So I get in touch with her every couple of weeks to 
give updates.
    The last time she contacted me, instead of as a response, 
it was because someone in the Turkish media wanted to film our 
reunion. And the news got back to her. And she couldn't believe 
that I would do that.
    I couldn't believe that she wouldn't have had the sense to 
ask me, ``Have you heard about this?'' I can't believe in her 
experience, she didn't know that people come out of the 
woodwork all the time. There are ridiculous amounts of people 
that have harassed or, I should say, approached every single 
one of us in this situation.
    There is Turkish media who say they know where my son is 
and that if I go on their show, they will assure a reunion. 
Yes. Well, I want them to report where my son is to the Turkish 
authorities. And that is not something that the American 
Embassy has been able to help me with.
    And so I guess that little anecdote kind of fills you in on 
my side.
    Mr. Smith. Was there any attempt by the Consulate Office in 
Turkey to do a welfare whereabouts or have they----
    Ms. Edwards. I have not requested that visit because I 
still have, thankfully, right now webcam access. I kind of have 
to put that on hold. I don't feel like that is an infinite 
resource. So I am using that when I have to have that. Any time 
my husband threatens to take my son to Syria, which is a 
border-sharing country, I open the communication again so they 
know that I am ready to have that sent out as needed.
    But no, I have not had a well check ordered so far.
    Mr. Smith. Now, has our Ambassador in Turkey raised your 
particular issue with the foreign ministry, as far as you know?
    Ms. Edwards. I am completely not aware that that has 
happened. It is not a request that I put through.
    Mr. Smith. It's something you shouldn't have to ask for.
    Ms. Edwards. Yes. No. I am not aware at all if that has 
happened.
    Mr. Smith. Mr. Bermudez, has that happened on your case?
    Mr. Bermudez. Yes. Actually,--and just to make her aware, 
actually, under ICARA, U.S. legislation that implements the 
abduction convention, parents are entitled to have a welfare 
and whereabouts visit every 6 months. This is also something 
that is allowed by the Geneva Convention.
    I have had two visits over the last 3 years. The first one 
they did immediately. The second one I had to get my 
congressman and senators involved to get State to actually act 
on my request to have my son's well-being ascertained. But I 
have had two visits.
    Actually, I was most recently in Mexico trying to get them 
to do another one and allow me to attend, if at all possible. 
And that is still something that I am working on.
    Mr. Smith. Mr. Goldman?
    Mr. Goldman. We all face sort of a feeling like we are 
marked with a scarlet letter initially when our children are 
abducted. There is this guilt. There is this feeling of what we 
did wrong, people are looking at us. We must have been some 
terrible people for a mom or a dad to run off with our 
children. Clearly, it is not the case. These are oftentimes 
very badly behaved people.
    There is no real punitive measurement on the actual 
abductor. They can stay within the country that they are 
living, file for a divorce or separation, like parents do when 
they separate, couples do, or they could say, ``You know what? 
I'm going to give it a shot. I'm going to go to this country, 
where I know I will have a jurisdictional advantage. And the 
worst case scenario is I get sent back and then have a normal 
divorce proceeding in the country, which I should have started 
this out to begin with.''
    So I know there have been suggestions of exit control, 
which is great. It wouldn't have helped me. I drove my wife and 
son and her parents to the airport with love, hugs, and kisses. 
And she goes to this foreign country, applies for custody in 
the courts of Brazil without me even knowing it for many, many 
months later. So that's how we start.
    If we show anger, if we show like we're outraged, I think I 
feel like our State Department wants to look for something to 
dismiss us as much as someone who just can't believe that a 
parent could take a child from another parent without the left-
behind parent to have done something that deserves it. So we 
are already starting out with this overwhelming feeling that we 
are behind the eight ball with a scarlet letter.
    They are very adept at maneuvering and stalling in the 
courts. As you noted, the abductors of my son were, in fact, 
lecturing to different legal fellow attorneys in Brazil on how 
the abducting parent can turn the abducted child into an attack 
missile against the left-behind parent, parental alienation. 
And he also was lectured. While they were holding my son 
illegally in Brazil, this family of lawyers was also lecturing 
on how a clever lawyer can stall the judicial system with 
endless appeals and motions to keep that child in the abducting 
country for years on end.
    And eventually the courts will say, ``Well, we know the 
child has been held illegally. We get that he has been 
abducted'' or ``she has been abducted. But now they are 
adapted. So let's reward the kidnapper. And let's be a country 
that actually rewards child abduction to the abductor.'' And, 
again, this is where we need to step in with these sanctions to 
show we're not going to tolerate this.
    There is no real deterrent for these abducting parents. And 
there is no punitive measure for them to face. The first thing 
a country would do is if you filed criminal charges, the Hague 
Convention, as good as it is, abductors use it as a double-
edged sword because it is a civil remedy.
    If America starts filing criminal prosecution against all 
of these child abductors, which we would in our own country if 
they took them across state lines, then the country where the 
child is abducted will say, ``Well, we're not going to return 
that child back to their home state because then the abducting 
parent will be in jail and they won't be able to see the 
child.''
    So, I mean, as the left-behind parent, all of these 
thoughts go through your mind and your heart. What do we do? 
What can we do? And it seems to me that the most sensible is to 
start with these sanctions and use them.
    Colin Bower in the back, his sons Ramsay and Noor, they 
were taken to Egypt by an abusive, drug-addicted mother, who 
forged passports. They entered Egypt with different last names 
on the passports than the mother. They entered Egypt. Egypt 
recognizes that they're held illegally. Yet, they still are in 
Egypt.
    We just basically gave Egypt $1 billion. We forgo a debt of 
$1 billion, and we are going to give them $1 billion more. Glad 
that they are going to be a democracy, glad that Mubarak is 
out, bad that our children are still held there illegally by 
unfit parents, let alone just abducting that should have been 
returned anyway.
    We have another case--and I believe he is going to be 
testifying--with Michael Elias. He served two terms in the 
deserts, came back a wounded veteran. The Japanese Embassy in 
New York gave fraudulent passports to the abducting mother of 
the children. And they are in Japan illegally. There has got to 
be something we can do. It is outrageous. And it is only 
getting worse year after year.
    As I said earlier, the room is smaller and the crowds are 
bigger. And hopefully we won't have to be here next year 
because countries will be returning our children.
    Mr. Smith. Thank you.
    Mr. Payne?
    [Applause.]
    Mr. Payne. Let me say I really appreciate the testimony, 
those of which I heard and those that I've read. And I think 
that you probably, through your testimony and the letter to the 
Secretary and also your answering of the questions, have 
answered the primary questions that I had.
    I would, though, like to review your case. What do you 
think? The primary reasons that you finally got the release of 
your son was through senators or Congressman Smith, the 
Convention? Because your case is successful--of course, it took 
a long, long time--I wonder what advice you would have 
specifically to other parents that you would give right now?
    Mr. Goldman. Well, essentially, I walked in their shoes 
with my pleas falling on deaf ears. I had a very skillful team 
of attorneys. The first order that I received that would call 
for the return of my son, that first order is the most crucial 
order as you go through the process in the legal arena. It 
needs to be basically as solid an order as you can get. You 
only get one first shot. So you definitely need an attorney who 
is very skillful on international child abduction, Hague or 
non-Hague countries, for that first order is paramount.
    Second, what brought it to the attention essentially was 
the media. The media in my case acted as a fourth branch of 
government. It brought the story. It called people's attention. 
For so long I had, like many people do, had family members, 
friends wanting to help, but what could they do? They could do 
little more than I could do. And, finally, when it caught the 
attention of Congressman Smith and your colleagues, who could 
actually do something and would do something, that made the 
difference.
    It began with the media. Ultimately it ended with sanctions 
by Senator Lautenberg. That shows sanctions mean something. 
These countries want our money more than they want our 
children. And it is unfortunate, but that is what it takes.
    We give so many of these countries billions of dollars of 
aid. And if we do have these sanctions ready and waiting, more 
often than not, they will return our children without us having 
to use them. If we use them once or twice on the worst 
offenders to get our kids home, they know we are serious. We 
shouldn't be.
    Most of these countries are our friends and our allies. And 
some of them, it is just inherent in their whole domestic 
system, as Japan. They have very archaic domestic laws when it 
comes to child custody to begin with. So they need to start 
there before they can--I can really feel comfortable with them 
acceding to the Hague Convention.
    Mr. Payne. Are you able to find attorneys or were you or 
any of the others an attorney in the host country, so to speak, 
that would be willing to fight the red tape in their country, 
or in other words, to take your side against their government, 
either one of you? What was your success or lack of success 
trying to get a qualified attorney to really fight on your 
behalf against their countries?
    Ms. Edwards. I myself am relatively early in the process 
still. So I have a Hague case under investigation. And it is 
going forward. And the government has opened the case on my 
behalf for my son's return. And, actually, they had a hearing 
this morning, 9 o'clock this morning.
    So in finding the attorney, though, it is a maze to find 
someone who has passible English or to constantly be dealing 
with a translator. For that person to be versed in the Hague is 
very rare. And for that person to be in the city where you need 
them is also rare. So what you are doing is going through an 
entire country and trying to find an expert and put them in a 
location where they can serve you.
    And while I would love to have had the money to get the 
best attorney anywhere in Turkey and have that person relocate 
for the course of this case or to pay them a travel for every 
hearing or whatever, those are not the conditions that we live 
in, you know. So you do the best you can.
    And I have an attorney who represents me. And we do work 
with a translator because I decided that her proficiency in 
English was less important than her proficiency in Hague. But 
these are decisions you have to make.
    And you have to also be timely. And then you have to 
constantly have a fear, was that the right choice? How do you 
know? This person I talk to is on Skype. How do I know that 
they're not going to take the money and run or how do I know 
that this person is even acting in my interest when clearly a 
judge and another Turkish attorney went way around the law to 
grant my husband full custody of my son?
    That case I am having overturned in Turkey. And it is going 
to be reheard, not that that should have any effect on the 
Hague, which is pending, but every little bit--I don't know 
what my Hague judge is going to consider when he sees a Turkish 
custody ruling. But also that I had to put off for a long time 
because I am always concerned about what I do there. How will 
that have implications here? What do I do here that will mess 
up there?
    I am still married to this man because I was worried that 
divorce would allow him the opportunity to appeal the Ohio 
custody. So there are all of these very intricate things to 
balance and maneuver.
    So finding the attorney, sure, is an issue. It is just one 
of many. And I would say that the list of attorneys on the 
State Department's Web site is not the way to go. You have got 
to go through the social networks and word of mouth. That way 
it is a whole lot of time and money wasted trying to find 
someone. But they will say, ``Yes, you can retain me for 
$10,000 up front and then $20,000 when you get your son home.'' 
You know, it is a racket.
    Mr. Payne. Mr. Bermudez, your experience?
    Mr. Bermudez. Actually, that is a very important question. 
Attorneys, not for nothing, don't have the best reputation in 
any country. Mexico is somewhat legendary in terms of not 
having a national way of accrediting attorneys. So there was 
actually a very large number of incompetent attorneys in 
Mexico. And selecting a competent attorney that has all the 
qualities that Sara just listed is essential.
    And initially I asked the State Department if they could 
just provide me a list of attorneys that had previously handled 
these types of cases so I knew I had someone with experience. 
And they refused to give this to me. They flat-out said, ``We 
can't provide legal advice. We can't make any kind of 
recommendations.'' And I think that is atrocious. I think this 
is the very least they can do.
    And, through trial and error and through lots of interviews 
and a massive amount of effort, I have had somewhat some luck 
in hiring attorneys in Mexico, but I do speak Spanish. And I 
can really relate to the difficulty of finding an attorney in a 
country where you do not speak the language. So it is 
unfortunate.
    Australia is a great example where they handled this much 
better. There is financial assistance provided directly to 
parents to hire an attorney and to locate one. So that is one 
of many things that I think can be improved upon in the United 
States' handling of child abduction cases.
    Mr. Payne. So in your opinion, probably the tactic is 
people would expect you to be worn down eventually and----
    Mr. Bermudez. Absolutely.
    Mr. Payne [continuing]. And quit.
    Mr. Bermudez. Absolutely.
    Mr. Payne. I mean, it's frustrating. You know it's your 
child. Number one, finances becomes an issue. Number two, 
delays, bureaucracy, postponements. And they figure they will 
just--time is on their side. They will win just by inertia of 
inaction. Is that what you think your goals are?
    Mr. Goldman. One hundred percent. One hundred percent. Time 
is our enemy. And they are adept at stalling and manipulating 
and keeping these cases going for years until we are 
emotionally, financially, physically bankrupt. And then we just 
walk as a dead man walking forever. And it is a terrible pain 
to deal with and to live with.
    In Brazil, it was taking so long for the Brazilian Central 
Authority to even process my case that I had to hire a private 
attorney. And then the Government of Brazil says, ``Well, no. 
We're not going to support you because now it is an individual 
case. You had a private attorney.'' So you are damned if you 
do, you're damned if you don't. They look for anything to keep 
the kid there.
    Mr. Payne. And in your two cases, because both have less 
publicity than, of course--well, maybe it did, but I am a New 
Jerseyite. So I follow the case very closely. Did they attempt, 
as they normally would do and as in your case, to turn the 
child against you, I mean, the parents? How did both of your 
children? And what were their ages? How young were they?
    Ms. Edwards. Well, my boy is three now. He was two when he 
left. And because I am able to see him by webcam, I know that 
he knows who I am. He calls me ``Sara.''
    He doesn't have any English. So I learned Turkish to keep 
up with him. We look at picture books. I am constantly 
concerned about losing his attention. I can't hold him. I can't 
play with him. I can't kick the ball. So I am trying to find 
new ways all the time to keep him involved.
    Back to the previous statement, I have not dealt so far 
with legal maneuverings that were uncouth. But I strongly 
believe that, even if I win my case, Muhammed is a flight risk. 
Then what? He is going to go somewhere else. Then what? He goes 
and hides in a village and the family protects him.
    So the other side of that is some kind of enforcement, some 
real political will to say, ``This person has won her case'' or 
``This person's case was wrongfully ruled'' or whatever the 
case is but to follow through on that because just, like I was 
mentioning before, knowing where to go next, knowing how this 
step affects the next. You have got to be able to see this all 
the way through.
    I am not going to wait until he leaves to try to find him. 
I mean, I am not going to wait until he leaves to try to 
prevent it. But, thankfully, so far that hasn't been the case.
    I do not know what he says about me. I don't know. I only 
imagine that it is very bad things because his family, whom I 
have known for 8 years and loved closely, turned against me. So 
clearly he is saying something bad.
    I really try to enjoy my time with my son. I really try to 
only focus on those moments we have. So I don't poke the beast 
and ask his father what he says. I don't poke the beast and 
say, ``What do you think this is doing to our child?''
    I have many questions I would love to ask him, and I don't 
have that chance because it is much more important for me to 
see my son and to know that Mommy is not crying and we're happy 
and we're having a good time because that's his normal right 
now.
    This boy doesn't have a mom. This boy is there completely 
separate from half of his life. And I don't want to be 
continually adding to his distress. So it's eggshells.
    Mr. Payne. Okay. And, just finally----
    Mr. Bermudez. My son was 1 year old when he was taken to 
Mexico. And I hadn't seen him for 2 years. So parental 
alienation was not a major concern because it's hard to 
formulate concepts of ``That is a bad person'' in a very young 
child's mind. As my son gets older, it is a concern that I 
definitely have. And following these cases for years now, it is 
something that happens all the time.
    I just recently saw my son 3 weeks ago for about 15 minutes 
for the first time in 2 years. And, as Ms. Edwards spoke to, it 
is--you know, we are really concerned about our children.
    We really want to--you know, I didn't run and grab my son. 
I hadn't seen him for 2 years. I wasn't sure. I believed he 
wouldn't remember me when he saw me. And so I didn't run and 
grab him. I kind of came up to him, and I said, ``Hi.'' I said, 
``How are you doing?'' And I asked him what his name was. And 
he looked at me. And I was relieved to see that there was a 
recognition that I was someone important, that I was someone he 
knew, even if he didn't know that I was his dad. And they had 
been teaching him to call his grandfather ``Father.'' And I 
believe that is a very serious piece of parental alienation 
that is going to be hard to change.
    So for the time being--I think seeing the reaction my son 
had to me--we played for about 15 minutes. And we both enjoyed 
ourselves. And I think when they saw that reaction, that 
empathy that we had, that relationship kind of still existed, 
and the potential for it to grow.
    I haven't been able to see my son since, 3 weeks. I've been 
in Mexico for a total of 4 weeks immediately prior to this 
hearing. And I saw my son the first week about 15 minutes. And 
they have been completely unresponsive to allowing me to see 
him again. And I think it is an effort of parental alienation 
to at some point be able to say, ``Look, the child doesn't know 
him. He doesn't respond to him. He doesn't know. You know, he 
has no relationship.'' So it's a legal tactic as well as just a 
form of child abuse, frankly.
    Mr. Payne. Thank you very much.
    Mr. Smith. Ms. Buerkle?
    [Applause.]
    Ms. Buerkle. Thank you, Mr. Chairman.
    Mr. Goldman, in your letter to Secretary Clinton and the 
letter that was signed by the left-behind parents of 117 
children, you state that, ``In our experience, all too often 
these international child abduction cases do not appear to be 
addressed aggressively because of the State Department's effort 
to maintain harmonious, bilateral relations with other 
countries or to pursue other compelling foreign policy goals.'' 
And, Mr. Bermudez, you alluded to the same thing in your 
testimony, the frustration with the State Department.
    Now, I would like to ask the three of you, if we were the 
State Department, what is it you want to tell them? And what is 
it you want us to ask of them and to tell them? So if you could 
be specific with us? What do you see? What do you want the 
State Department to do?
    Because I disagree with the fact that the State Department 
doesn't work for the American people because they do. 
Ultimately they are to be representing American people. You are 
the American people. So I would like to hear from you 
specifically. What is it you need and you want from the State 
Department so we can have that opportunity to make those 
demands of them? We will start with Mr. Goldman.
    Mr. Goldman. Well, first, as the former Assistant Secretary 
of State for the Western Hemisphere pointed out at the last 
hearing 2 years ago, when there is an Ambassador who is 
appointed, say, to Mexico or Colombia, their first order of 
business is going to be immigration, drugs, arms, economics.
    And that is why we do need to have this special Ambassador-
at-Large.
    So those other issues are taking precedent. And our 
abducted children are on the bottom of the totem pole. And we 
need to make them a priority. It is growing. The number of 
children that are being abducted and also the ones that are 
remaining held illegally, it's just growing and growing.
    So we need to have this Ambassador-at-Large to focus 
specifically on our abducted children. We need to have some 
sort of system where Congress, each congressman knows when a 
child is abducted from their district. And they will be the 
advocate and get involved with the State Department.
    Also, the State Department needs tools. They should be here 
begging us for help that they need and have needed for so many 
years. It shouldn't be anything that we have to introduce and 
then hope for votes and then hope that Democrats and the 
Republicans will get together to help our children. The State 
Department should be here begging for us for the help and to 
give them the tools that they so desperately need in their 
toolbox.
    [Applause.]
    Mr. Goldman. And if it has to go all the way up to economic 
sanctions, it has to go up to economic sanctions.
    [Applause.]
    Ms. Buerkle. Ms. Edwards, I have the same question for you.
    Ms. Edwards. Aside from the points that David mentioned, 
one huge specific is that there should be a way for the State 
Department to correspond with the central authorities in Hague 
signatory countries, mine specifically the Turkish Central 
Authority, and that they should be able to flag people who are 
subject to a current Hague case and prevent them from traveling 
outside of the country during a current Hague case. This is 
something that can be done and something that should be done, 
the fact that there is a good possibility Muhammed will come 
back and try to maintain his legal residency status, retain his 
green card status, he can go into any port, do that, stay a 
couple of days, and go home, without my son ever coming here, 
without my son having rights to me.
    I guess those are the specifics that I really, really would 
pray for. Yes. I will leave that.
    Ms. Buerkle. Thank you.
    Mr. Bermudez?
    Mr. Bermudez. The State Department hiring process. I think 
one of the problems we have with our Foreign Service officers 
might be called a form of clientitis. I think one of the things 
I would like them to do in their hiring process is to ask 
everybody applying for a job there to identify the United 
States on a globe. I think what we see is that sometimes there 
is some confusion as to whether they represent foreign 
interests in America or American interests in foreign 
countries.
    Mr. Smith. Could you repeat that?
    Mr. Bermudez. Yes. Sure. I think one of the problems we 
have with our Foreign Service officers might be called a form 
of clientitis, where it is unclear whether our Foreign Service 
officers represent foreign countries' interests in America or 
American interests in foreign countries.
    I think one thing that would be of value to us is to have 
each applicant at the State Department identify where the 
United States is on a globe to be sure that they know who they 
are working for.
    [Applause.]
    Mr. Bermudez. The other thing I would really like them to 
know is that, you know, when we want to promote the interests 
of abducted children, we are not asking for something that is 
unpopular. This is something that we will be respected for. 
This is not an irritant. This is something that every other 
country has, this problem.
    You know, we have to look beyond the trees to see the 
forest. I mean, it's a case where if we could lead on this 
issue, this is a human rights issue. And let's be very clear 
about that. Contrary to spending political capital, we'll gain 
political capital. We will have the opportunity to speak with 
moral authority on other issues.
    And I think that is something sorely lacking. And I think 
that our lack of advocacy on this is detrimental to our foreign 
policy. I think it has a negative effect, rather than----
    Mr. Goldman. And we are not asking these countries for any 
favors. We are just asking them to abide by the rule of law. We 
don't want favors. It is not a favor to return our abducted 
children. It is abiding by the rule of law. It is simple, 
should be so simple.
    Ms. Buerkle. Thank you very much. I appreciate your courage 
to be here today and to all of the folks in the room. Thank you 
very much for your willingness to come out. And I ask you not 
to be discouraged.
    I understand all of these hearings and this many years 
later, but I think you have a pledge from these Members of 
Congress that we are concerned that we will hold the State 
Department. We will talk with them and certainly hold them 
accountable. They do work for the American people, and we do 
pay their salaries.
    So thank you all very much for being here.
    [Applause.]
    Mr. Smith. Mr. Marino?
    Mr. Marino. No.
    Mr. Smith. I want to thank our very distinguished panel.
    I just want to ask one ``Yes'' or ``No'' question. You 
know, it's been said that if you say you don't have time, you 
stated a priority, you haven't stated a fact. I know, David, 
you have spoken to the U.S. Ambassador in Brazil. It took a 
long time. But I wonder, Ms. Edwards and Mr. Bermudez, have you 
had contact with the U.S. Ambassador?
    Ms. Edwards. No.
    Mr. Bermudez. Absolutely not, not----
    Mr. Smith. Anything else you would like to add before we go 
to panel number 2?
    [No response.]
    Mr. Smith. Thank you so much for your testimony.
    [Applause.]
    Mr. Smith. We would like to now welcome our second panel. 
And beginning with Mr. Michael Elias, who is currently a Bergen 
County Sheriff in the State of New Jersey. He is a former 
sergeant in the United States Marine Corps and met his wife 
while stationed in Japan in 2004 to 2005. She abducted their 
two children, Jade and Michael, to Japan in December 2008.
    Through his testimony here, we will hear about the 
particular challenges that parents whose children are abducted 
to Japan face, particularly from when they happen to be 
military personnel.
    I would note parenthetically that earlier this year, I 
traveled to Japan with Nancy and Miguel Elias, Jade's and 
Michael's grandparents, Michael's mom and dad. I spent several 
days there meeting with high officials in the Japanese 
Government. And it was very clear that when they got to make 
their case, there were very empathetic ears, but the question 
is whether or not those empathetic ears turn into tangible 
policy that will permit the return of children who have been 
abducted to Japan.
    As I said at the outset, it needs to be underscored with 
exclamation points if there is a mere ascension to the Hague 
without resolving the existing cases, there will be a gross 
miscarriage of justice perpetrated upon those American children 
and those left-behind parents. So this committee, and I'm sure 
members of both sides of the aisle, will be very emphatic to 
our friends in Japan--and they are indeed friends--in the 
government that they need to resolve these cases.
    Next, we will hear from Mr. Joshua Izzard, who is the 
father of Melisande Izzard, who was born in Chicago, Illinois 
on June 18th of 2008. She was taken by her mother to Russia in 
October 2010. Mr. Izzard has not seen his daughter since 
September of last year and has not been allowed to talk to her 
since January.
    Then we will hear from Mr. Colin Bower, who is the father 
of Noor and Ramsay Bower, ages 10 and 8. Noor and Ramsay were 
abducted by their mother from Boston to Egypt in August 2009. 
Colin remains committed to the safe and swift return of his 
children. I am pleased to have joined Barney Frank in 
sponsoring H. Res. 193 with regard to their particular case.
    So I would like to now ask Mr. Elias if he would proceed.

 STATEMENT OF MR. MICHEL ELIAS, FATHER OF CHILDREN ABDUCTED TO 
                             JAPAN

    Mr. Elias. Thank you.
    Congressman Smith and distinguished members of the 
subcommittee, my name is Michael Elias and I would like to 
thank you for all your opportunities to share with you my 
personal experience involving international child abduction.
    I would like to first extend my deepest sympathies to the 
people of Japan affected by the devastation of the earthquake, 
tsunami, and nuclear disasters.
    I am a former sergeant of the United States Marine Corps, 
from August 2003 to November 2007. I am currently a Bergen 
County Sheriff in the State of New Jersey. While stationed in 
Japan in 2004 to 2005, I met my wife, Mayumi Nakamura.
    Shortly thereafter, I was stationed in Camp Lejeune, North 
Carolina. She contacted me and informed me that she was 
pregnant. In September 2005, Mayumi relocated to the United 
States. And on October 18, 2005, we were married in Rutherford, 
New Jersey. Our first child, Jade Maki Elias, was born on 
January 5, 2006, at the naval hospital in Camp Lejeune.
    In March 2007, I was deployed to Iraq. On August 2nd, 2007, 
while I was serving my country, my son Michael Angel Elias was 
born at Hackensack Medical Center in New Jersey. This inspired 
new levels of patriotism and responsibility inside of me that 
were matched with love for my family and children.
    While I was deployed, Mayumi and our children lived with my 
parents in New Jersey. During that time Mayumi started a 
relationship with a Japanese national, Kenichiro Negishi, who 
was her travel agent.
    When I returned from serving my country in Iraq, Mayumi, my 
children, and my extended family were all reunited and living 
together in New Jersey. Sadly a few months after my return, 
Mayumi and I separated.
    I was then served with a document from Mayumi, headlining, 
``An Agreement for Travel and Residency,'' stating that ``I, 
Michael Elias, allow Mayumi and my two children to visit Japan 
without any restrictions under any circumstances.'' If these 
conditions were not met, I would have to surrender any custody 
rights of Jade and Michael to Mayumi. This would also result in 
a relocation of Mayumi and our two children to Japan from the 
United States if Mayumi elects to do so. The document then 
stated, ``Whether or not any actions of Michael Elias is 
complied with the conditions above are determined by Mayumi 
Elias, and Michael Elias must respect her decision at any time. 
Also, regardless of the courts' decisions, Michael Elias 
respects and follows the terms stated above.''
    I sought counsel after Mayumi asked me to sign that 
document that she had already signed on September 26, 2008. On 
October 29, 2008, before the Honorable Judge Alexander H. 
Carver of the Superior Court of Bergen County, New Jersey, I 
was awarded joint custody of my children. On that day, Judge 
Carver clearly ordered three times that the children's 
passports, both American and Japanese, be turned over to her 
attorney, Victor Nezu, because she was an obvious flight risk.
    I did everything I could to ensure the safety and well-
being of my children. I felt confident and had every reasonable 
expectation in our legal system with the ruling of Judge Carver 
and the strength of the United States Government, that my 
American-born children would be protected from being kidnapped 
to Japan. I was wrong.
    Mayumi was an employee of the Japanese Consulate in New 
York City issuing visas and passports. She used her position in 
the Consulate as a tool to carefully collaborate the abduction 
of our children. Mayumi had replacement passports issued in the 
Japanese Consulate in Chicago, where she and her boyfriend, 
Kenichiro, exited the country through Chicago's O'Hare airport.
    They carried out the abduction of our children on the 
Japanese Airline flight number 9, bound for Tokyo Narita 
airport in Japan on December 6, 2008. I still have in my 
possession their original passports.
    My family and I are horrified and sickened by Mayumi's 
actions. We have repeatedly attempted to contact the Japanese 
Consulate in New York, Chicago and Washington DC and continue 
to receive no cooperation whatsoever.
    Shortly after she had arrived in Japan, I was contacted by 
Mayumi, saying she had unilaterally decided that she would 
raise the children in Japan. When explaining to her that she 
had kidnapped our children, she maintained that, I quote, 
``It's not kidnapping. My country will protect me.''
    Thereafter I was awarded full custody of our children here 
in the United States. The judge also ordered the immediate 
return of the children to the United States from Japan by means 
of The Hague Convention. Unfortunately, the judge was unaware 
of Japan not being a signatory of the treaty and Japan's lack 
of accession, something Mayumi seemingly understood.
    To date, no child has ever been returned by the Japanese 
Government. According to the State Departments statistics, 
there are 321 documented cases of abduction from the U.S. to 
Japan alone. If we include numbers of American children 
abducted while living in Japan, statistics would significantly 
be higher.
    It is no doubt that these heinous crimes will continue and 
at the time of our next State Department meeting, these figures 
will have risen as more children will continue to be 
unwillingly and unlawfully abducted.
    Since the abduction I have pleaded with Mayumi to return 
our children back to the United States, assuring her that there 
were no criminal charges pending in fear that she will not 
return under those conditions.
    On January 5, 2010, I was granted the privilege to see my 
children via Skype. It was my daughter's fourth birthday. 
Although it was very hard to see my children through a monitor, 
it was very satisfying to see them so happy to see me. My 
daughter, Jade, looked at her mother in heartache and said to 
her ever so softly something in Japanese. When I asked Mayumi 
what Jade had said, she replied, ``She wants to be with you.'' 
The monitor immediately went blank. That was last time I saw my 
daughter's face.
    February of this year, my parents flew to Japan. With the 
assistance of the United States Embassy in Tokyo; Congressman 
Smith; and my attorney, Patricia Apy, they tried to contact 
Mayumi to ask if they could visit their grandchildren. After 
countless e-mails and phone calls were ignored, the U.S. 
Embassy was able to reach Mayumi. And she denied any access for 
my parents. She also told the Embassy she was not accepting any 
of their calls. Excuse me. Needless to say, my parents were 
devastated, but not shocked.
    The sense of longing for my children can be completely 
unbearable and crippling at times. It does not get better with 
time. It only grows deeper and deeper along with the sense of 
hopelessness. As a father who no longer has his children to 
hold in his arms, I cannot deal with the sorrow. So I try my 
best to stay strong and keep fighting for their return.
    All my hopes and dreams for their future now lie in the 
hands of others. I am begging our Government to help not only 
my family, but hundreds of other heartbroken families as well 
to demand the return of our American children who are being 
held in Japan and in most cases never seen or heard from again.
    This goes against everything we stand for as Americans and 
especially for our children's lives and well-being. This is not 
just a family issue or an international issue. This is a human 
rights issue.
    Our children are too young to speak for themselves. I am 
expecting our Government to be their voice.
    In conclusion, I would like to read the names of the 
following American children abducted to and wrongfully retained 
in Japan who are unaccounted for since the earthquake/tsunami 
and ongoing nuclear disaster: Kianna Berg; Gunnar Berg; Keisuke 
Collins; Michiru Donaldson; Kai Endo; David Gesselman; Joshua 
Gesselman; Ayako Lucy Greenberg; Shanon Yuda Ishida; Riki 
Ishida; Ricky Kephart; Noelle Kephart; Mary Victoria Lake; 
Yuuki McCoy; ``Mochi'' Atomu Imoto Morehouse; Rui Prager; Rion 
Suzuki; Tiana Weed; Takoda Weed; and Kaya Wong.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Elias follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Mr. Elias, thank you so very much. And I would 
like to now ask Mr. Izzard if he could proceed.

  STATEMENT OF MR. JOSHUA IZZARD, FATHER OF CHILD ABDUCTED TO 
                             RUSSIA

    Mr. Izzard. Thank you, Mr. Chairman and Members of 
Congress, for inviting me to testify today regarding the 
ongoing tragedy of international parental kidnapping.
    I am Joshua Hannum Izzard, bereaved father and sole and 
legal guardian of Melisande Izzard, my American-born-and-raised 
daughter and only child, who was taken almost 8 months ago to 
Perm, Russia; whose voice I haven't heard for many long months 
now.
    I have been living for nearly 8 months with a hole in my 
life, while some, like Mr. Tom Sylvester of Cincinnati, Ohio, 
whose testimony I read during the preparation of my own, and 
his daughter and others like them have lived with that hole for 
years. Our great country must stop this constant bleeding of 
its most important resource, its children, in the interest of 
other, may I say, more tangible or natural resources or 
diplomatic gains.
    As a nation, we need to construct legal mechanisms to 
facilitate resolution of existing parental kidnappings and put 
in place effective preventative mechanisms to assure that our 
citizens are not subjected to this daily, unbearable sorrow 
that comes in the wake of an international parental kidnapping.
    I was in Rome, Italy when Tatiana Ivleva, my decade-long 
partner, the love of my life and the wife of 5 years, the 
mother of my daughter, Melisande, called to inform me that she 
and my little blue-eyed angel were in Russia and would never 
return, that I would never see my daughter again. In shock, I 
nearly collapsed on the street.
    I wrote the first of many letters for my daughter while 
flying home, speeding westward away from her to Chicago. My 
heart seemed a spool of thread unwinding, my life unraveling as 
the distance between us grew.
    At home I opened the door to our Chicago apartment 
overlooking Lake Michigan. Desolation overwhelmed me as the 
golden afternoon light filtering through the dead silence of 
our living room gently touched on a semicircle of my daughter's 
favorite toys, left exactly as she had been playing with them. 
No joyous ``Daddy's home,'' only silence, thundering silence.
    Initial denial became steely resolve to protect my child, 
who now lives in grave danger, to bring her back to her loving, 
lawful home. Since the kidnapping, my offers of compromise and 
reconciliation have gone unanswered, court orders and decisions 
ignored, and pleas to at least have phone calls with my 
daughter unheeded.
    A local arrest warrant has been issued for Tatiana. The 
FBI, INTERPOL, Chicago PD, National Center for Missing and 
Exploited Children, State Department, and congressmen's offices 
are all involved, though the FBI open case crawls along due to 
the Office of Children's Issues' steadfast refusal to inform 
the FBI as to how they have been contacting my ex-wife.
    I have given interviews to U.S. and Russian media, each 
time imploring Tatiana to simply speak with me, to negotiate a 
solution.
    Melisande was torn away from me and everyone and everything 
she had known from birth in one cruel, selfish instant by her 
mother, Tatiana, and maternal grandmother, Galina, and abruptly 
plunged into a strange world of darkness, mental illness, and 
physical danger.
    Tatiana's own signed statements declare that she 
immediately moved in with her high school boyfriend in Russia, 
an abusive individual named Andrey Medvedev, with whom, it has 
been proven, she had been having an extramarital relationship 
for some time prior to the kidnapping.
    Mr. Medvedev is a violent alcoholic, with numerous 
documental citations for public intoxication; drunk driving, 
for which he lost his license; and physical violence, offenses 
ranging from assaulting a bar employee to terrorizing neighbors 
with his drunken rages to purported accusations of child 
molestation. Both his former wife and a long-time live-in 
partner report that his inability to control himself when 
drinking was a primary cause of the breakup of their 
relationships. He is furthermore reported to be a devoted 
adherent of a cult which advocates the use of psychoactive 
drugs, engaging in ritualistic sexual behavior, and forcing 
women to submit to dominant males, isolating themselves from 
society.
    This is precisely what my ex-wife has done. Despite not 
working, Tatiana attended only two court hearings in Russia 
before signing over her full power of attorney regarding all 
aspects of our divorce, including Melisande's upbringing and 
custody, to a violent alcoholic, whose decisions will impact my 
daughter's life forever.
    The role of the Russian Consulate in the abduction itself 
and the ensuing legal processes has seen Russia make a joke of 
its own laws and flaunt its impunity to the international 
community.
    To accomplish the abduction, Tatiana turned to the Russian 
Consulate in Washington, DC, for help. What she said is 
unknown, but she was issued a one-time Russian Repatriation 
Certificate with our American daughter's name written on it. 
This document allowed her to abduct our daughter, a U.S. 
citizen, from U.S. soil and transport her directly to a non-
Hague country.
    Imagine the situation, please, anyone here who travels 
frequently: Two nervous Russian women with a bewildered 2-year-
old U.S. citizen in tow passing through security and boarding a 
foreign-bound commercial flight at one of America's busiest 
airports, without passports, without the signed permission of 
their father.
    Tatiana wrote to thank Russian diplomats Nikolay Teoglot 
and Ekaterina Polozkova for the certificate issued shortly 
after the kidnapping. This note is in the possession of the 
FBI.
    To reiterate, TSA officials accepted a travel document in 
lieu of a passport. And the airline they flew with required no 
further checks as to why and how these individuals were 
boarding an international flight with no passports and no 
written permission from the other parent, while at that very 
moment the father was happily scouting shops in Rome for 
presents to bring back to his beloved family. Diplomatic abuse 
and lack of exit controls and effective screening procedures 
made this abduction possible.
    I have many close friends in Russia, but, sadly, it is a 
country in which not only international laws and human rights 
are frequently violated but one which does not follow the 
letter of its own law.
    Consider the fact that since 2003, Russia has unilaterally 
refused to observe its duties under the 1965 Hague Service 
Convention. It will not serve its citizens with divorce papers 
or legal documents from the United States of America. Yet, it 
permits its citizens to argue in court that they were not 
properly served because the papers were not delivered by Hague 
Service Convention through the Ministry of Justice in Russia.
    Despite this, I was able to satisfy both American and 
Russian process service requirements and went on to win the 
American custody case when we were divorced on December 29, 
2010.
    I proceeded to legalize the divorce decision at the Russian 
Consulate in Washington, DC. And this decision was affirmed by 
the Russian Government's Vital Records Office in Moscow, who 
stated that the American divorce was valid in Russia from the 
moment on December 29, 2010, that it went into effect.
    Now please prepare yourselves for an entry into a bizarre 
no-man's land of lawlessness and intrigue. Provincial Russian 
Judge Olga Sherbakova, being in possession of the properly 
served American divorce petition and divorce decision, 
translated into Russian, allowed Tatiana to initiate a divorce 
suit with me as respondent. The first hearing was on January 
20, 2011, nearly a month after we were divorced with a decision 
that the Russian State had already considered valid.
    Maxim Ivlev, my ex-wife's brother, as former head of the 
Legal Department of the Perm Duma, Senate, is a person with 
deep political, judicial, and intelligence service connections.
    Within days, a media smear campaign, including primetime 
specials vilifying me, was undertaken. The media campaign 
included public statements and letters by politicians Pavel 
Mikov and Ilya Neustroev, who both violated Russian 
constitutional law regarding separation of the political and 
judicial systems. They both approached judges--they themselves 
publicly declared so--and requested an expedited outcome in 
favor of the Russian mother. Politician Neustroev, Tatiana's 
brother's former superior, runs a live blog, in which he 
immediately published an entry about my family titled, ``I am 
Against America.''
    I then received serious threats against my life, so serious 
that I won't travel to Perm, lending credibility to my former 
wife's publicized statement that I don't care enough about my 
daughter to even visit her.
    Please note, Mr. Chairman, there is never mention of the 
welfare of my daughter. Rather, it's Russia against America and 
my daughter a disposable political pawn.
    The process leading up to my ``second divorce'' from my 
only wife on March 24, 2011, was fraught with bias. Legal 
infractions were numerous. The presiding judge met in private 
with Tatiana's side. Evidence was mysteriously introduced into 
the court clerk's files. Decisions consisting of several typed 
pages were ready within minutes or even seconds of the 
conclusion of the hearings, indicating that they had been 
prepared beforehand.
    At one hearing, it was claimed that 2\1/2\-year-old 
Melisande had said she did not wish to Skype with her father, 
and it was argued that it would constitute child abuse to 
enforce Skype visitation. This argument was upheld by Russian 
courts.
    It was stated that I am currently in Perm, Russia, plotting 
a Rambo-like attempt to bring Melisande home and was, 
therefore, forbidden to travel with Melisande. My passport 
proves I have not travelled outside of the United States since 
I was in Rome. Russian Immigration and Border Control or the 
Russian Consulate here in Washington, DC, could confirm that I 
have not had a Russian visa, without which it is impossible to 
travel there, since 2007.
    On March 24, 2011, I was divorced from a person that Russia 
had acknowledged I was not married to and had not been for the 
preceding 3 months. During the hearing, 20 procedural norms of 
the Russian Code of Civil Procedure or Civil Code were broken. 
Tatiana was awarded full custody and another divorce as well as 
child support, which if applied by Russian standards would 
require a local father to pay 80 percent of his income.
    A complete list of these violations is available upon 
request, but here is a quick sampling in order of their 
breaking. I won't enumerate the numbers, they being 
meaningless. However, a summary of them is by violating 
existing Russian laws, the Russian courts provided a 
legalization of the abduction.
    I was never served with any court documents from Russia. 
Neither was I allowed to give testimony or present statements 
from scores of witnesses willing to testify for me. My ex-
wife's only witness, Mrs. Kseniya Vorontsova, gave fallacious, 
mendacious testimony against me, including statements that we 
had spoken in 2011, when, in fact, the last time that I had 
spoken with this individual was 2009.
    I was not given time for translation of the documents. My 
lawyer was denied or given delayed access to case materials. My 
legalized Russian court decision and Russian governmental proof 
that I was already divorced were not taken into consideration. 
A higher court process was ignored by a lower court. And the 
courts refused to accept and register official evidence.
    The case was tried in a court which had no jurisdiction 
because no evidence was even presented that Melisande could be 
a Russian citizen.
    My daughter and I were denied and continue to be denied 
contact with each other throughout the course of the 
proceedings, again explicitly violating Russian law. But there 
is no mechanism for enforcement.
    So grievous were the violations that 10 days ago an 
Appellate Court in Russia upheld my viewpoint, overturning the 
lower court's decision in its entirety, and sending the case 
back to the same lower court but to be retried by a different 
judge. My ex-wife and I may soon have the singular distinction 
of having been married once but divorced three times.
    However, the appeal was reviewed without notification of my 
legal counsel. And the second half of the session occurred 
without him being present, as has happened numerous times. And 
while it's cited the many infractions the overwhelming reason 
for the overturning of the previous decision was that no 
evidence has been presented that Melisande is a Russian 
citizen.
    And so, to my surprise, in the course of this very hearing, 
at the beginning, I was given a fax, copy of a fax, from the 
Russian Consulate confirming indeed that my daughter is a 
Russian citizen and, furthermore, with a document, which I have 
never seen before, that bears my signature giving permission to 
the granting of Russian citizenship to my daughter, very 
expedient.
    Mr. Chairman, I contend that my daughter and I have the 
inalienable right to a full and loving parental/child 
relationship. The Russian Consulate's, courts, and government's 
assistance to Ms. Ivleva and Mr. Medvedev have facilitated 
violation of my daughter's and my right to that most basic 
human relationship, eroding the foundations of law; 
international diplomacy; and one of the most important elements 
of society, in fact, the fundamental element: The family. The 
alienation that is likely beginning now will have lifelong 
consequences for Melisande and for me and for Melisande's 
entire family in the U.S. I can't imagine doing to my daughter 
what is being done to her.
    I deplore my family's tragedy being politicized. And I 
appeal to Russia to look beyond political one-upmanship and to 
acknowledge that a horrible injustice is being done to a little 
girl who needs her father, and to a father and family that love 
her little golden head, sparkling eyes, and joyous laugh.
    Americans must take a decisive stance on defending our own 
citizens, our own inalienable rights to the most basic of 
relationships and bonds that a person has: Those between 
children and their parents.
    I pray that our testimonies might lead to legislation which 
would unite all bereaved parties, which would prevent similar 
situations for other parents and children who might suffer due 
to selfish decisions of one or the other parent.
    Intervention by government agencies whose hands are tied by 
incomplete or non-existent laws and enforcement mechanisms can 
lead to one eventuality and one alone. In non-Hague cases and, 
as we see, many Hague cases of child abduction, physical 
possession of the child spells complete control of the 
situation and of the other parent. The situation must be 
remedied for our children's future.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Izzard follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Mr. Izzard, thank you.
    The Chair recognizes Mr. Bower.

 STATEMENT OF MR. COLIN BOWER, FATHER OF CHILDREN ABDUCTED TO 
                             EGYPT

    Mr. Bower. Thank you.
    Chairman Smith, honorable subcommittee members. Thank you 
for inviting me to testify today. Chairman Smith, thank you, in 
particular, for your support of H. Res. 193 with Congressman 
Frank.
    My children, both American citizens, were kidnapped and are 
being held illegally today in Egypt by Egypt. Meanwhile, the 
United States rewards Egypt by giving them billions of dollars 
in aid, $2 billion, in particular, announced last week.
    This is wrong, by any definition. And I call for cessation 
of any aid to Egypt from the United States until they recognize 
human rights, the spirit of their own revolution, and, in doing 
so, return my sons: Noor and Ramsay Bower.
    Noor and Ramsay, now ages 10 and 8, were kidnapped to Egypt 
in August 2009 by the mother, Mirvat el Nady. In light of 
Mirvat el Nady's condition, outlined in H. Res. 193, I have 
always assumed the parenting responsibilities for my two boys. 
I woke up with them every day, fed them, clothed them, made 
sure they got to school or to an appropriate activity I 
scheduled for them, and I brought them to their play dates and 
parties. I bathed them. I read to them. And I put them to bed.
    I changed jobs in order to simultaneously support my family 
financially and act as a de facto single parent. Before and 
after the divorce, I remained their sole legal and primary 
custodial parent.
    What I think of today and worry about most is Noor's and 
Ramsay's present safety and their future quality of life. I 
wonder what they are being taught. I believe this will 
materially determine what they think and what choices they will 
ultimately have in life.
    Their futures are being impacted each day they remain 
parented by an unfit mother, remain supported by her 
government, and enabled by her family from the abduction to the 
ongoing support of parental alienation and child abuse, both 
financially through their family company, Egybelg, and 
otherwise. My boys are being forced to hide from the rest of 
the world. And I can't imagine what this must be like for them.
    There are several notable issues involved in this tragedy. 
First, this is not a custody battle. There was a 20-month court 
case in Boston completed in December 2008 in which both parties 
participated fully from start to finish, including Mirvat el 
Nady being represented by six separate high-powered U.S. 
divorce attorneys.
    This is a Federal crime. The FBI issued a Federal warrant 
for the arrest of Mirvat el Nady, including the issuance of an 
INTERPOL red notice.
    Third, this involves national security. Mirvat el Nady 
obtained Egyptian passports for the children in false last 
names. The passports were in false names. The Egyptian 
passports were real. Passport fraud, which this is, is an 
extraditable offense under the Mutual Legal Assistance Treaty, 
the MLAT Treaty, that exists today between Egypt and the United 
States. False passports, by definition, are used to commit 
crimes in other countries, just as in this case.
    Fourth, this is child abuse. U.S. Supreme Court and other 
international bodies deemed both child abduction and parental 
alienation child abuse. This is not debatable.
    The fact that Mirvat el Nady was found to be a long-tern 
addict of schedule 2 narcotics and incapable of to this day 
anticipating the boys' needs it yet another level of child 
abuse, which imperils the boys today.
    Lastly, this is a state-sponsored crime. The Egyptian 
Government issued false passports. They indirectly own the 
airline that ignored all the obvious flags by letting Mirvat el 
Nady kidnap these boys to Egypt using Egypt Air. And they 
provided el Nady security through the Egyptian State Security 
Agency, an agency which is now defunct after the revolution for 
being corrupt. The Egyptian Government shut down streets for 
Mirvat el Nady to travel, something they don't do for the 
highest level politicians.
    There are many things we can do immediately to protect our 
children in basic human rights. Because time is limited, I am 
going to focus on five. The first and most obvious given 
current events, before receiving the $2 billion de facto aid 
package announced last week, Egypt must demonstrate through 
action its commitment to human rights.
    Even the people of Egypt, who will either benefit or suffer 
from this aid, have spoken about the need to make sure this 
money does not simply continue the power structure that existed 
under the now defunct Mubarak regime.
    By fact and definition, my children's rights are and have 
been abused for 21 months now. I call on the U.S. Government to 
ensure that the new Egyptian Government is protecting human 
rights, not violating them, and demonstrates this with the 
return of Noor and Ramsay before giving any aid to Egypt.
    Second, before receiving aid, we need to ensure that the 
MLAT is being enforced by our partners and appropriate 
extradition is being carried out. This is a national security 
issue and one that impacts all of us in the United States. We 
should not provide aid to countries that have enabled crimes to 
be committed in our country against our citizen and who do not 
implement conditions of the MLAT.
    Any agreement can be signed, but if it's not enforced, it 
is worse than having no treaty as all as it allows purveyors of 
deceit to fly under a false cloak of legitimacy.
    Third, before they receive aid, we need countries to agree 
to recognized and mirror existing probate orders involving 
custody decisions reached in residential jurisdictions where 
both parties were active participants and legally represented.
    The country harboring the fugitive should issue a mirror 
order consistent with the existing order in the country of the 
children's primary residence. These are principles not 
inconsistent with the Hague Convention today.
    Fourth, I call on the Republican Party to stop the 
moratorium on resolutions being heard this Congress and make 
available the ability of House resolutions to be heard on the 
floor, including and notably H. Res. 193, which is bipartisan 
and involves the lives of my two little boys.
    Alternatively, I ask for exceptions to be made in cases 
crucial to the lives of American children, including my boys 
and others in similar situations.
    I ask that both parties stand together to send a strong 
message to Egypt and other countries that we support the 
Egyptian people's goal of obtaining democracy in human rights 
by assuring their new government acts in concert with these 
values before receiving the financial backing of the United 
States.
    Given the relevant facts, it is not a stretch to say that 
H. Res. 193 if acted upon could very well save the lives of 
Noor and Ramsay.
    Fifth, there must be further controls in place to protect 
against the unlawful removal of our children to foreign 
countries. In my case, the divorce judgment did call for a 
restriction on my ex-wife, Mirvat el Nady, to remove the 
children from the Commonwealth. Were such controls in place, 
this removal would not have happened.
    Subcommittee members, I thank you for your invitation to 
speak today and for your consideration of this most important 
issue.
    [The prepared statement of Mr. Bower follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony.
    [Applause.]
    Mr. Smith. I thank each of you for your very specific 
recommendations and for very carefully delineating your 
individual heartache because that helps us to get a better 
handle on what we can do to be, hopefully, positive in our 
response as well.
    I would again note that this is a panel of non-Hague 
countries. You know, the three of you have had your children 
abducted to a country that has not signed the Hague, unlike our 
first panel. We will have a series of votes, so I will be 
brief. But on the Office of Children's Issues, if you could 
tell us briefly how well or poorly they have served you.
    And I would encourage you not to worry about retaliation, 
even though that is easier for me to say than you. And if any 
of you, any of the parents, know of an instance where someone 
copped an attitude or worse as a result of your candor, we as 
an oversight, as well as a lawmaking subcommittee, legislative 
subcommittee, need to know that because we all serve you. And I 
want to say that again with emphasis.
    I would like to know if each of you have had a phone call 
from perhaps the Ambassador or any contact with the Ambassador 
in Russia, Egypt, and Japan. And also two of you spoke in 
Michael Elias' case of a passport being issued under fraudulent 
circumstances; in other words, the judge took the original 
passports.
    And then someone at the Consulate's office in Chicago, 
Illinois falsely issued, either knowingly or unknowingly--we 
don't know still, but the Japanese Government told you that 
there would be an investigation. What has happened to that 
investigation? We asked. And before you answer, in the case of 
Mr. Bower, you talked about outright fraud, where it's clear 
the wrong names in violation, as you put, of the MLAT. What has 
been the response of our Government to you on that issue?
    And then I will yield to Mr. Payne for any questions he 
might have. Please?
    Mr. Elias. As far as the Office of Children's Issues, 
Congressman Smith, I have spoken with them directly. I have not 
gained or lost or anything from them. So there is no comment I 
could really make upon that.
    And as far as the phone call from the Ambassador goes from 
Japan, I have not personally spoken, received a letter, or 
heard any news of good or bad, from him personally.
    Mr. Smith. Briefly, has somebody from the Embassy called 
you at any time or has it all been OCI or what?
    Mr. Elias. There is that ongoing investigation, but for the 
past almost 3 years in December that my children have been 
gone, I have not received anything upon an investigation or 
call from their Embassy directly from Chicago or New York.
    Mr. Smith. Do you and the other left-behind parents whose 
children have been abducted to Japan with the G-8 Summit very, 
very shortly to be convened and the anticipated announcement by 
Japan that they may sign the Hague, of course, with 
reservations--that could be catastrophic--how does that make 
you feel and the other left-behind parents whose kids are in 
Japan?
    Mr. Elias. As far as them signing the Hague Convention, I 
don't see it happening personally. And, like we discussed 
before, even if they do, there's going to be numerous different 
kinds of language in it that would probably prevent me or any 
other left-behind parent as of right now from being 
grandfathered in. And it would definitely have to be--I think 
we should definitely--if we're getting them to sign the Hague 
Convention, we should sit down and declare what we want in the 
Hague Convention, not what they see as right to be put in just 
so they can have us off their back and say, ``Don't worry about 
it.''
    [Applause.]
    Mr. Smith. In your view, there would need to be a sidebar 
agreement, country to country, U.S.----
    [Applause.]
    Mr. Elias. There needs to be a sit-down with them.
    Mr. Smith. Thank you.
    Mr. Izzard. I would like to answer first the question 
regarding OCI and how OCI has served me. It has been competent. 
They have conducted two welfare and whereabouts visits in 
Russia based entirely on the information which I had to 
literally spend a fortune on to actually locate my wife and 
daughter via private means.
    However, the Office of Children's Issues has refused to 
coordinate with the FBI so that the FBI investigation could 
move forward because the agent that I had been working with out 
of the Chicago field office obviously has an open case with a 
number. However, because of the unusual circumstances that we 
were not getting divorced when my daughter was abducted, there 
is a very high bar to clear in order for there to be Federal 
criminal charges.
    However, OCI has not provided the relevant information as 
to how they contact Tatiana so that the FBI could, hopefully, 
get the attaches in Russia to contact her and get her side of 
the story.
    Regarding contact with the Embassy or the Ambassador, my 
mother actually assisted me greatly in contacting the Embassy 
in Moscow. She was at the time living in Moscow. However, the 
OCI here in Washington discouraged us from continuing to do so 
because they said that they would like all of the communication 
to be handled directly through the office in Washington, DC, 
even though in my opinion the people on the ground in Russia 
have a better understanding of the very unique circumstances 
regarding, say, the way things are done in Russia.
    I think that is all.
    Mr. Smith. Mr. Bower?
    Mr. Bower. In my case, I have spoken with Ambassador Scobey 
and met with Ambassador Scobey in Cairo a number of times. I am 
in almost weekly contact with the Consul General there. I speak 
directly and communicate directly with Ambassador Jacobs.
    Attention and responsiveness have not been my issue. 
Really, it is ironic in a way that this amount of attention 
almost takes away from the need to act on either party. And I 
would give up all of this attention for one single act, linear 
move, in the direction of a return. And I have not seen that. 
And I think a lot of the diplomatic speak gets in the way of 
any activity whatsoever.
    I would also note that, for the record, it is difficult to 
speak directly about the State Department when you believe that 
the return of your children falls squarely into their hands and 
to think about being negative in any which way.
    As a family, as a parent in this situation, you do not in 
any way want to speak out against an entity that could 
potentially provide an avenue for the return of your children.
    Regarding the MLAT, the State Department has filed a 
request for information. The Assistant U.S. Attorney has filed 
a formal request. Senator Kerry has sent a letter. I have, as 
is my right according to Egyptian law, filed a request for 
information regarding the passport documents. All have been 
summarily denied or ignored.
    The Attorney General's office is continuing to pursue this. 
They have said, the Assistant U.S. Attorney, they have another 
arrow in their quiver. I do not know what that means.
    There has been no precedent set for extradition under MLAT 
from Egypt.
    Mr. Smith. Mr. Payne?
    Mr. Payne. Thank you. Thank you all for your testimonies. 
And I just wondered, Mr. Elias, being a military person, do you 
see these issues perhaps even being more prevalent with members 
from our military, regardless of where they are serving?
    Mr. Elias. I see it being more prominent in the military, 
strictly because you are subjected to overseas at long periods 
of time. And if I could give anything to that, that question, 
when you are brought overseas, any country that you go to, as 
being a Marine, you are briefed on everything from the number 
of people that have AIDS over there to the amount of robberies. 
And you are given classes on how the ocean comes in and hits 
the shore.
    Our of all of those classes, I should have been given a 
class on child abduction or at least----
    [Applause.]
    Mr. Elias. Thank you.
    --had it aware to me because I was so young in Japan. I was 
only 19 years old serving my country in Japan. And I had no 
idea I would be sitting here before any of you today.
    Mr. Payne. It seems like that should be a part of the 
military training. Japan has had a relationship with the U.S. 
military in Okinawa and other places that had been strained for 
a long period of time. And it seems like that would be a part 
of what they would be talking about.
    Hopefully perhaps with the great support that the United 
States has been giving with the current tragedy in Japan, 
perhaps, you know, there could be some opening up of dialogue 
to the Government of Japan about taking a look at the manner in 
which they treat their friends.
    In Egypt also, a country that is going through transition, 
perhaps it may be an opportunity. There is a very close 
military relationship to the Egyptian military currently in 
charge. And it might be a suggestion to our State Department 
officials and even the Department of Defense because they were 
probably the ones that influenced the Egyptians not to fire on 
the people, Egyptian people, military, military kind of 
relationship they have. And, as we saw in other countries, 
Syria, Tunisia, the military fired on the people. They did.
    So there could possibly be at this time an opportunity to 
have our Government talk, even if it's with military, State 
Department, to the Egyptian Government. So I would hope that 
that might be a window of opportunity.
    And, even, actually, in Russia, there is a better working 
relationship with the Russian authorities and the U.S. They 
have cooperated with us on Iran, for example, on the 
proliferation of potential nuclear weapons.
    And so I would hope that perhaps one of the moves from our 
subcommittee would be that we make a special appeal because of 
the changing situation. I mean, it doesn't apply to everybody 
in every country but, at least your three countries, I think 
that there is some hope, at least, that there could be some 
dialogue.
    So, with that, I won't ask you any other questions at this 
time. We have votes coming up. And I will yield to other 
members of the panel. Thank you.
    Mr. Smith. Ms. Buerkle?
    Ms. Buerkle. Thank you, Mr. Chairman. Thank you to you all 
for being here today. Mr. Elias, thank you for your service to 
this country.
    I will ask three brief questions and allow other members to 
ask their questions and then submit additional questions in 
writing. Mr. Izzard, in your testimony, you mentioned about the 
two Russian diplomats in the Russian Embassy and your ex-wife 
worked with them.
    Has any follow-up been done? Has anyone held them 
accountable for their part in this? And was there any 
prosecution?
    Mr. Izzard. There has been no prosecution. There was a 
meeting approximately 1 month ago between the United States 
Department of State and Russian Consulate employees. The State 
Department declined to tell me with whom they met in 
particular. I do not believe that it was these two individuals.
    And the Russian Consulate stated that their policy is that 
any person that comes in their front door that can prove that 
they are a Russian citizen, that that person's word will be 
taken at face value on good faith. And, therefore, they felt 
that they were justified in doing whatever that they did in 
issuing whatever, the Repatriation Certificate, which allowed 
my ex-wife and daughter to leave the country without passports.
    Ms. Buerkle. And so someone from the State Department had 
attended that hearing or that meeting, but you were not 
involved in that meeting?
    Mr. Izzard. I was not involved in that meeting, and I was 
given very limited information as to what was divulged.
    Ms. Buerkle. Do you know who the person from the State 
Department was?
    Mr. Izzard. I believe it was Ms. Janelle Guest. And I think 
she was accompanied by someone else, but I do not know that 
individual's name.
    Ms. Buerkle. Thank you.
    Mr. Elias, same with regards to you. After the judge 
ordered that the passports be surrendered, you testified that 
your ex-wife obtained new passports. Has there been an 
investigation of her actions, anyone who may have assisted her, 
and any outcome to that or prosecution?
    Mr. Elias. I have my speculations of who assisted her and 
everything like that. I don't want to get into that, but there 
is supposedly an ongoing investigation that I have not received 
a conclusion for at this time.
    Ms. Buerkle. And in your situation, is it State Department 
as well? Who is conducting this investigation? Is it the FBI?
    Mr. Elias. The actual Embassy of Japan.
    Ms. Buerkle. Thank you.
    And, lastly, Mr. Bower, you mentioned about the TSA's role 
and the airline's role and the fact that they let the children 
go through. Has any further action been taken against the 
airlines and/or the TSA? Have you had a conversation with them 
and made them aware of the situation?
    Mr. Bower. Yes. As a matter of fact, there is currently a 
suit that I filed against Egypt Air in this matter. And the 
suit is ongoing. So I can't speak much about it. So I will 
leave it like that.
    But yes. We are in discovery about this very issue.
    Ms. Buerkle. And with regards to the TSA, have they been 
put on notice of what happened?
    Mr. Bower. Yes, they have.
    Ms. Buerkle. Thank you. I will yield back my time. Thank 
you, Mr. Chairman. Thank you to our witnesses today.
    Mr. Smith. Thank you very much.
    Mr. Marino?
    Mr. Marino. Chairman, I do not have any questions. I would 
like to make a statement, though.
    First of all, I cannot begin to imagine what pain all of 
you have gone through. You have my deepest sympathies. I know 
the two best wonderful days of my life have been when I adopted 
my babies.
    Before I was a prosecutor, I was involved in domestic law 
here in the United States. And it can be extremely difficult. I 
can only magnify that by a million times with domestic law or 
international divorce law and custody, but I think where we can 
start here is because you have answered all of the questions 
eloquently.
    There is no question that I could ask that would elicit a 
resolution, but I think I speak for my colleagues. And it has 
been certainly the chairman has gone down this path once or 
twice. I think the place for you to start is with your 
representatives, your congressman, your congresswoman, your 
senators because we deal a great amount of time with foreign 
issues.
    We deal with ambassadors given the fact that we are on 
Judiciary, Foreign Affairs, Homeland Security. These all 
overlap. And in many cases, having a congressman or a 
congresswoman or a senator involved may to a certain extent 
expedite the matter.
    I see my colleague to the left of me has been writing down 
names from State Department. And we can make phone calls. We 
can ask for meetings with these people and, if we have to, 
demand what can and should be done.
    And we are talking about international law. We are talking 
about treaties. We are talking about relationships or lack 
thereof with other countries. But I think we can initiate the 
task that you have undertaken. And it seems like many of you 
have undertaken these tasks yourselves.
    So the only thing that I can offer at this point is contact 
us from the beginning. We will play a vital role in this, 
communicating with our State Department and our ambassadors.
    I am a new member of the Congress, but I can tell you that 
I have spoken with numerous ambassadors in addressing this 
specific issue with them. I presented to the ambassadors a 
situation that had nothing to do with why they were visiting me 
but with what the United States had on their mind concerning 
other issues and got their attention rather quickly.
    So perhaps in the future we can assist that way, at the 
very least, and help you through the process until we get this, 
your particular issue, resolved or until we get this resolved 
concerning any abductions of American children.
    I yield my time.
    Mr. Smith. Mr. Marino, thank you very much. You know, you 
raised an extraordinarily important point that we can be 
advocates. And I would encourage you, if you haven't already, 
to be in contact with your individual member and two senators.
    In the last appropriations bill, we wrote language that was 
included in the bill that admonished, told, instructed the 
Office of Children's Issues to inform a left-behind parent who 
files with them that a good advocate could be their own 
individual representative; but because of Privacy Act reasons, 
they can't automatically say to us--because I would like to 
know who in my district or in my state, for example, who is a 
left-behind parent. And I am not sure how well that is being 
implemented.
    I ask but don't necessarily get good answers back, but it 
does mean that we will then be on their backs, just as our 
constituents, rightfully, should be on our backs to do our job.
    You know, we all serve the people and not the other way 
around. So I thank you all. If there is anything else you would 
like to add before we go to panel number three? You have been 
tremendous witnesses. And I agree with my colleagues on both 
sides of the aisle. Our hearts go out to you. And we will do 
everything we can possibly do to keep the pressure on.
    Yes, Mr. Bower?
    Mr. Bower. Chairman, I would just like to make one point. I 
understand that the Foreign Services Committee has jurisdiction 
over bilateral aid.
    Mr. Smith. Yes.
    Mr. Bower. And I would note that the aid, as announced last 
week in President Obama's speech, would, therefore, fall under 
the jurisdiction of this committee. And I would ask that you 
make a stipulation that my children be returned before $1 of 
that aid is given to Egypt.
    Mr. Smith. I thank you. Yes, sir. Your point is well-taken.
    [Applause.]
    Mr. Smith. Both the Appropriations Committee and the 
authorizing committees have jurisdiction. So thank you so much 
for that, appreciate it. Anything else you would like to add?
    I would also like to say to all of the other left-behind 
parents here and others who couldn't be here today there will 
be additional hearings. We will focus on the military side, 
like Michael Elias.
    I did do an amendment to the Department of Defense bill a 
couple of years back, in 2009, that requires them, as Mr. Payne 
was pointing out so well, to begin educating--and Patricia Apy 
will speak to this, I'm sure, when she testifies--so that 
people who are deployed overseas are not unaware of what the 
risks are, and also so that our JAG corps is much better 
acquainted with the issue of child abduction to better serve 
those who are deployed overseas.
    So thank you so much, all three, for your tremendous 
testimony. Thank you.
    [Applause.]
    Mr. Smith. I would like to now introduce our third panel of 
experts, beginning with Ms. Patricia Apy, who is a partner with 
the law firm of Paras, Apy, and Reiss, who specializes in 
complex family litigation, particularly international 
interstate child custody litigation. Her qualifications for 
testifying for us are impressive and extensive. And I will 
reference only a few of them.
    She has litigated, been qualified as an expert witness, and 
consulted on international family disputes throughout the 
world. Ms. Apy frequently consults and is regularly qualified 
as an expert on family dispute resolution in non-Hague 
countries and risk factors for child abduction. She has also 
participated in numerous reported decisions on Hague treaties 
regarding child protection and abduction. She is also a 
consultant to the U.S. Departments of State and Defense on 
issues involving families and children and the application of 
treaty law.
    She was also, as we all know, one of the lead attorneys, 
certainly the lead U.S. attorney, for David Goldman, and 
provided expert advice and counsel in that long, arduous case.
    Next we will hear from Ms. Kristin Wells, who is a partner 
in the law firm Patton Boggs. Ms. Wells provides lobbying 
services on a range of international affairs issues. She is 
well-known here on the Foreign Affairs Committee as she 
previously served as deputy chief counsel to now Ranking Member 
Howard Berman.
    In that capacity, she worked on international child 
abduction issues with me and with my staff and others, 
including the crafting of H. Res. 125, known as the Sean and 
David Goldman Resolution, which also included Patrick Braden's 
case of his abducted child, Melissa.
    I introduced this resolution, calling on the Brazilian 
Government to return Sean to his father. It passed the House in 
May 2009.
    And then we will hear from Jesse Eaves, who is a child 
protection policy advisor at World Vision right here in 
Washington. Jesse coordinates the advocacy portfolio for issues 
of child protection. That includes child soldiers, exploited 
child labor, child trafficking, and child sexual exploitation. 
He works with World Vision programs around the world to ensure 
child protection is integrated into programming and 
international advocacy strategy. Jesse also educates and 
mobilizes Americans to take a stand against abuse, 
exploitation, neglect, and violence toward children.
    Ms. Apy, the floor is yours.

 STATEMENT OF MS. PATRICIA APY, ATTORNEY, PARAS, APY & REISS, 
                              P.C.

    Ms. Apy. Good afternoon, Chairman Smith and Ranking Member 
Payne and members of the subcommittee. Earlier in the 
testimony, there was reference by one of the witnesses to the 
concept of a time capsule. And that immediately resonated to 
the testimony I am about to give because, actually, 11 years 
ago, in May 2000, I was asked by the Clinton administration to 
travel to Japan to begin discussions addressing the Hague 
Convention on the Civil Aspects of International Child 
Abduction and to discuss international child support 
obligations.
    Ironically, both of those meetings were--and I have since 
obviously been to Japan, most recently in the congressional 
delegation headed by Congressman Smith. Both of those meetings 
and discussions about the Hague Convention were immediately 
preceding the G-8 Summit.
    Now, in 2000, I met with Japanese officials, attorneys, 
judges, American diplomats, and American military commanders 
and addressed the issues of parental kidnapping, the abduction 
convention, allegations of domestic violence, and cases 
involving American service members.
    I left the meetings having been told by the Japanese that 
they were considering the protections found in the Hague 
treaty. And I wad told by American diplomats that they were 
discouraged at what appeared to be little more than lip 
service.
    When I returned with Congressman Smith in February, the 
topics discussed were precisely the same as the discussions 
that had been held 11 years earlier.
    I am expecting to return to Japan in July to provide on-
site training to American judge advocates and civilian 
attorneys serving our military families abroad regarding 
international child custody considerations.
    I think that, given that we have had the announcements with 
respect to the Hague Convention, it is extraordinarily 
important to understand exactly what is being proposed and how 
it is and is not responsive to the issues raised and the 
extraordinarily poised and heartfelt testimony you have heard 
from left-behind parents.
    Encouraging accession to the Hague Convention is, of 
course, a laudable goal. For one thing, it is a positive step 
in international law to define and recognize parental 
kidnapping as a wrongful act, which, believe me, as we sit here 
is not appreciated in Japan.
    It ensures that the eventual resolution of a child custody 
dispute will be done in the place where the evidence is located 
regarding what is in the best interest of a child. That is the 
focus of the Convention. That is the child's habitual 
residence.
    However, the moment that the Japanese deposit the accession 
to the Convention and request the accession to be accepted by 
the United States of America, a number of things will happen. 
And those have to be considered and appreciated, particularly 
by the Congress. One is that the people who are sitting behind 
me with children who have been abducted to Japan will be left 
in a position of legal limbo.
    Now, in cases in which we have accessions filed by 
countries that have a family law construct and a type of family 
law which has a legal culture that appreciates custody and 
appreciates visitation, it consigns those whose children have 
been abducted to have to litigate their cases in the country to 
which the child has been taken. That is not what I am talking 
about.
    In this situation, there is no remedy. Promises that the 
Japanese domestic law is going to be changed are welcome but 
not responsive to the issue that this is an international 
parental abduction. And, of course, it is not responsive to the 
real issue that is being raised here. And that is what happens 
when we are talking about issues parental abduction that rise 
above the individual cases to a nation state's issue.
    No parent should be in the position of having to become the 
United States Department of State, which is essentially what 
you have heard described to you here today. The treaty provides 
that the Convention will apply between contracting states only 
to wrongful removals and retentions after its entry into force. 
So as an initial preposition, that will cut off all of the 
individuals, who, by the way, you have numbered incorrectly.
    Non-Hague countries are historically under-reported by the 
United States Department of State for good reasons. First of 
all, there are no central authorities in the countries involved 
which are keeping accurate numbers. We keep numbers based on 
who has applied for assistance through the State Department or 
applied for assistance through a central authority abroad.
    In the case of a non-treaty signator, there is no 
repository. And many of the individuals who have been affected 
don't bother to file, certainly historically, with the United 
States Department of State because there were no services 
provided, no advantages to have done so. So, as a result, you 
have a whole host and percentage of cases who have simply 
unreported.
    The second issue is, particularly as it relates to American 
military members, abductions from our bases in Japan, for 
example, are considered internal domestic abductions and, 
therefore, aren't considered as international abductions, 
despite the fact that an American service member may have been 
living on one of our bases.
    So if the purpose of this hearing is, in part, to identify 
how we can improve the rate of the return of children, the very 
first thing you have to do is have a legitimate way of 
identifying how many children you have and what the problems 
are.
    The other issue is that if the accession is deposited as it 
is expected with extensive reservations, it will be a lot worse 
than form over substance.
    In a recent press account issued in Japan, there were 
assurances that the proposed legislation would specify that 
returns will be denied in the case of child or spousal abuse 
and there will be--and I will quote here--``no negative effects 
on the welfare of the child.'' Let me tell you that what that 
means is that it implies a best interest determination, which 
is prohibited by the express language of the treaty. In other 
words, it converts it from an abduction case to a child custody 
case.
    And, finally, the chairman of the Japanese Federation of 
Bar Associations cautioned,--and I will quote--``Urging the 
government not to rush into concluding the treaty, citing the 
need for thorough discussion by experts and related parties.'' 
Well, as I indicate in my written remarks, it would be 
difficult to imagine, since the dialogue regarding the treaty 
was alleged to have begun before July 2000, when the world's 
leaders met in Okinawa, and assurances were made to President 
Clinton what further internal discussions could be conducted 
which would do anything other than delay and obstruct the 
return of abducted children.
    The recommendations, which are included in my written 
remarks, include as it relates to not just the Japanese issue 
but any offering of an accession to not merely accept the 
accession without some critical analysis, which has been the 
policy of the United States Department of State. We accept the 
accession. And then we worry about how it actually works.
    I must caution it is a dangerous precedent. American judges 
rely on accessions as evidence that if they allow a child to 
visit grandma in a Hague country like Turkey, that the child 
will be returned in accordance with the Hague Convention, 
despite the fact that there may be no central authority that 
has been provided, despite the fact that there is no political 
or actual will on the part of that country to do so.
    I recommend that in advance of full compliance with the 
treaty, that the United States Department of State encourage 
the return of children through a number of diplomatic 
mechanisms. One is that they enter into a memorandum of 
understanding, which is drafted to include an immediate 
protocol for the resolution of existing cases involving 
children alleged to have been abducted to Japan, abducted 
within Japan, as well as Japanese children alleged to have been 
abducted to the United States.
    By setting this model protocol, issues of particular 
concern to Japanese legislators could be addressed in advance 
of finalizing the language in domestic legislation. So if we 
are going to start talking about issues, for example, of 
domestic violence, which are genuine concerns, and issues of 
spousal and child abuse, which are genuine concerns, by having 
an MOU, the good faith nature of those concerns, as opposed to 
what have seen in many, many of these cases,--and that is 
pretext to avoid returns--can be ferreted out. And the Japanese 
legislators, who are dealing with the rewrite of their domestic 
law, can have the benefit of experts in the United States who 
are failed with these issues and create a objective and 
credible mechanism for ensuring that such allegations are 
seriously addressed, protections assured, mutual recognition 
encouraged, and preventing the use of false allegations to 
reduce the effectiveness of the treaty.
    We have to deal with the issues of American service members 
and their families and assist judge advocates and command 
authority with tools to advise American service members and 
Japanese national family members of reasonable and enforceable 
resolutions.
    And we have to assess Japan's genuine commitment to the 
process of fighting international parental abduction by setting 
objective standards, which can be evaluated and can be 
addressed critically, if necessary. This would provide a 
template for other countries which are considering the steps 
approaching signing onto the Hague Convention.
    We have other nations, particularly--and, again, my written 
remarks will address it. And I know we are short on time, but 
there was comment made about statecraft and the issues of 
statecraft as it relates to this particular problem.
    We have countries like Pakistan. Not only do we have 
significant issues of aid, but we have huge populations of 
Pakistani-Americans who have relationships and travel regularly 
back and forth.
    The United Kingdom has entered into bilateral agreements 
with the Pakistanis to deal with child abduction issues. We 
should be in that same position.
    Now, again, historically the United States Department of 
State has taken a position that they will not entertain a 
memorandum of understanding because historically it was viewed 
to dilute the global effectiveness of getting everyone on 
board, if you will, to the Hague Convention.
    The problem with that is the countries now, the non-Hague 
countries, in vast majority that have not entered into the 
Hague have unique issues with respect to the religious and 
cultural elements of their law, which make it necessary, very 
frankly, to find other ways to assure that they can become full 
reciprocal partners under the Hague.
    A memorandum of understanding provides that opportunity. 
And the United States Department of State should immediately 
engage in discussions with judicial and governmental officials 
in non-Hague countries that have indicated that they want to do 
that, like the United Arab Emirates, India, and Pakistan.
    Finally, with regard to reciprocity and the comments that 
were made with respect to the United States Department of State 
and the Office of Children's Issues and the perception of 
American left-behind parents that they're not being advocated 
for, there is no question that the United States Department of 
State Office of Children's Issues has as a client, not the 
individual parent, but the United States of America. That is 
the reality.
    The problem is not that parents in my experience want them 
to be lawyers or want them to be involved in individual family 
litigation. They want them to do their job, which is to address 
the diplomatic issues and efforts, collection of information, 
and accountability that an individual litigant cannot possibly 
do.
    In order for them to have the tools to do that, there have 
to be some very concrete things that are done. One is there has 
to be in real time an acknowledgement when a country is not 
acting in compliance with the treaty and cull that out in more 
than the report form. That is that reciprocity has to be 
something that an American judge and American parents who were 
formulating settlements of custody disputes can rely upon.
    Legislative efforts in this body and in the other body must 
provide mechanisms for diplomatic actions that deal with the 
systemic lack of reciprocity. These parents can't do it 
themselves.
    The protections outlined in now numbered 1940, the Smith 
bill, provides an objective, transparent process to evaluate 
reciprocity, which is the first step. Is this really a 
reciprocal relationship anymore? If it's not, like in Ecuador, 
where there is no central authority anymore, an American judge 
in Illinois might want to know that there is no way to get a 
child back because an American parent is going to have to hire 
three lawyers to be able to do it because there is no central 
authority.
    By way of example, in circumstances in which there are 
persistent and historical misuse of this process and treaty, 
other American parents and judges who are similarly situated 
need to know that. No one should have to hire experts to appear 
in family courts, which right now they do, in order to get 
protective orders to prevent abductions.
    The work of this body in having resolutions, which 
addressed Brazil and Japan, has been used in hundreds of cases 
around the United States to provide the opportunity for parents 
and judges to formulate protective orders.
    But you shouldn't have to do that. You should be able to--I 
mean, this body should not have to go to work on every 
individual child abduction case. There should be a process that 
evaluates that a country is not in compliance, enter into, if 
necessary, an MOU, which addresses the deficiency and allows 
for an objective review.
    [Applause.]
    Ms. Apy. A reasonable system of diplomatic consequences 
must be available to the Secretary of State and the President 
of the United States so that no country may engage in the 
repeated and flagrant violation of its treaty obligations with 
meaningful review.
    In conclusion--and I appreciate the extraordinary amount of 
time that this issue has been given by this committee, and I 
will tell you that the prior committee hearings and commission 
hearings have made incredible impacts on the operation of 
domestic law in the United States. And so I congratulate the 
chairman and the members of this subcommittee for spending the 
time that they have.
    You are already aware that two of my clients, David Goldman 
and Michael Elias, have offered testimony to you today. I am 
most certainly not the only family lawyer working to see that 
families and children are protected from the scourge of 
international parental abduction. And I cringed when earlier 
there was a moment or two of concern about the motivation of 
lawyers, but I need to say that the American Bar Association 
Family Law Section and international sections, in particular, 
have been asked by the President of the ABA at the request of 
Congressman Smith to review the legislation that has been 
presented and the issues and to make recommendation on this 
legislation and other actions of this body.
    Additionally, the American Chapter of the International 
Academy of Matrimonial Lawyers have also offered their 
expertise, both in evaluating proposed legislation and in 
providing assistance to the United States Department of State. 
Both the members of the ABA and the IAML have given thousands 
of hours of pro bono assistance in support of the return of 
abducted children and in advice and counsel to our colleagues 
at the United States Department of State.
    I am personally appreciative of the continued willingness 
of Secretary Janice Jacobs to entertain my concerns and those 
of my colleagues in attempting to address these complex issues 
on a case-by-case basis. However,--and this is the take-away--
her accessibility is no substitute for a genuine, identifiable, 
and transparent process to address issues involving all 
similarly situated parents diplomatically.
    My colleagues continue to provide incredible insight and 
advice and a willingness to work with the Members of Congress 
to improve the working of the treaty. The comment to contact 
your Congress person is only part of the step.
    The members of this subcommittee I do not believe are 
representative of what usually happens. And that is, the people 
behind me contact their Congress person, who contacts OCI, who 
sends a self-serving letter that basically goes through 
administrative steps that have been taken and nothing more. 
There is no advocacy associated with that.
    My observations during my most recent visit to Japan 
revealed the extraordinary access and contact that Congressman 
Smith was able to achieve, which undoubtedly advanced the 
serious dialogue with the Japanese Government in which we are 
now engaged.
    I am honored to have been given the opportunity to 
participate in those meetings and to testify before this 
subcommittee in its efforts to bring every abducted child home. 
And I thank you.
    [Applause.]
    [The prepared statement of Ms. Apy follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Ms. Apy, thank you very much.
    And Ms. Wells?

   STATEMENT OF MS. KRISTIN WELLS, PARTNER, PATTON BOGGS LLP

    Ms. Wells. Chairman Smith, Ranking Member Payne, 
Representative Marino, and members of the subcommittee, I am 
honored to be here today to share with you my thoughts and 
concerns about the parental abduction of American children to 
foreign countries.
    I am here today testifying on my own behalf. And in no way 
should any of my comments be attributed to the partnership of 
Patton Boggs or any of its clients.
    My written testimony provides an overview of some of the 
policy issues around international abduction of children. A 
number of these have been discussed already. So I am going to 
shorten my oral comments today. But my testimony does highlight 
some issues with the Hague Convention. It addresses obstacles 
associated with non-Hague Convention cases, discusses some of 
the challenges and improvements that have occurred at the 
Department of State, but I am going to discuss that a bit more.
    We had highlighted issues relating to abductions in Africa 
and Japan and made some suggestions on some practical actions 
that Congress and other parts of the U.S. Government can take 
to improve the U.S. Government's response to abduction cases.
    I will note that my testimony focuses primarily on abducted 
American children. And that, rightfully, is the focus today. 
But it is important to note that the Hague Convention also 
covers non-U.S. citizen children who are residing in the United 
States at the time of their abduction, irrespective of their 
immigration status here.
    And also as a party to the Convention, the United States is 
obliged to help return the hundreds of children who are 
abducted from other countries into the United States each year 
from around the world. And I think this is an issue that the 
committee and subcommittee should continue to look at. We are 
rightfully concerned about U.S. citizens and U.S. constituents, 
but we also need I think to take a look at how our country is 
doing in respending to requests from other countries.
    The Convention, as we have discussed, is a very imperfect 
legal instrument, but it has successfully helped to resolve a 
number of child abduction cases around the world. And it has 
returned children to their left-behind parents. And for every 
parent that has gotten their child through the Hague Convention 
mechanism, I am sure they are grateful of its existence, 
despite its sometimes low success rate.
    It does provide a means for countries to communicate with 
one another and identifies authorities in each nation 
responsible for addressing these cases.
    To clarify some of the internationally agreed-upon values 
of focusing on the child's best interest--and I don't mean, as 
Ms. Apy noted, that other courts should be making that 
determination, but it agrees that that is an important 
principle and that that principle should be best met by the 
jurisdictional court, where the child habitually resided. It 
also presses governments to promptly return the child. And it 
embodies promises made by the contracting states to assist 
other countries in locating children abducted into their 
territory.
    Despite these benefits, there are too many cases, as we 
have heard today, where the Hague countries fail to return 
children to their state of habitual residence unless the Hague 
Convention does often fail in its primary objective.
    The unfortunate delays in return and sometimes the complete 
failure to return children result from a number of problems 
with the Convention itself at times. One of the problems, as we 
have heard, is the lack of an effective enforcement mechanism. 
And I think some of the discussions about the use of trade and 
other mechanisms of bilateral power or influence are in 
response to the fact that there is no enforcement process.
    But the Hague Conference on International Private Law, 
while it has no enforcement mechanism, could still continue to 
discuss ways in which enforcement could be further enhanced, 
not just in the interest of the United States but for all 
nations that are signatories.
    In particular, though, this issue of enforcement is 
particularly complicated when a child is a dual national. And, 
as we have often seen or heard in these cases that were 
described today, even when a child is not a dual national, they 
often become a dual national as part of the abduction and the 
effort to take or keep them in another country.
    In addition to the issue of enforcement, there is also 
insufficient oversight of the Convention, the mechanism--or I 
would say I would encourage the committee to look at the 
mechanism by which the Hague Conference reviews its own 
operations around the world, not just in the United States, 
because the truth of the matter is that while the United States 
doesn't have any obligation to oversee or make particular 
comments about these matters, it is in our interest to do so.
    We have as a country tremendous legal expertise and 
resources. And so I think if we can look at ways in which we 
can also influence the Hague Conference to either take more 
actions or initiate new discussions that might not have been 
had or continue to help progress their--or I shouldn't say 
their agenda but issues that we think are important, such as 
oversight and how that oversight is then turned into actionable 
review that can improve the Hague system as a whole, I think 
that is a useful role for the United States to play.
    Although the Convention is over 30 years old, a myriad of 
interpretation issues are also evident in the U.S. case law and 
in the cases coming from other countries.
    The fact that nations and courts interpret the language of 
the Convention differently has dramatic effects on these cases 
and often result in children not being returned.
    There are different interpretations of habitual residence, 
debates about where the child actually was living. There are 
questions about whether the abduction was wrongful, as was 
noted in one of the witness' testimony, where the abducting 
spouse said, you know, ``This isn't wrong. I'm the parent.'' 
And that is a frequent reply, not only by the parents but 
sometimes by foreign judicial systems as well. And, yet, the 
Convention has some clear language on these matters, but I 
guess I shouldn't clear--make it clear to one reader, but then 
it's read in so many different ways in different countries.
    This is a problem with the Convention and how we come to 
some standards that can be uniformly accepted by both the 
Convention and then applied by judges around the world. This 
would help tremendously, but I think it is going to be a long 
haul. Nonetheless, I think it is something for Congress to 
think about and look at and to talk with the State Department 
and other U.S. Government officials about.
    The critical area of interpretation regarding the Hague 
Convention is the provision that requires that children not be 
returned to a place where they would be harmed. This is the 
grave risk of harm extension. And it says that they cannot be 
returned to a place where they would be exposed to physical or 
psychological harm.
    This language is very critical in domestic violence cases. 
And there is a fair bit of U.S. case law on this as well but 
also conflicting case law.
    And so in my more lengthy submission, testimony, I have 
made a suggestion that the Department of Justice be more 
involved at looking at how some of this language is interpreted 
by U.S. courts. So that even if we can't prevent the fact that 
some of this language might be interpreted differently in the 
United States and in Senegal and in Thailand, we can at least 
try to make some uniform analysis of how the language of the 
Convention is interpreted in the United States.
    I also need to note that domestic violence is frequently 
alleged and used as a tool, unfortunately, by either the 
abducting parents or some of the government officials that get 
involved in the case. There are often concerns of domestic 
violence raised in cases where there is absolutely no evidence 
of that. The false claim, of course, not only hurts those 
children involved but hurts, takes away attention from cases 
where domestic violence really is at issue.
    In terms of non-Hague cases, without the Hague Convention, 
left-behind parents face tremendous hurdles. As you, Chairman 
Smith, well know, they might not be able to identify where 
their child is located. They may seek to get a U.S. custody or 
visitation order, recognized in a foreign jurisdiction, but 
have faced great hurdles in doing so. They are often not able 
to even effectively file a case in another jurisdiction or if 
it's filed, it may not get heard.
    Sometimes it is difficult to identify who in the foreign 
government has the ability, power, or desire to either locate 
or help return the child. And without the Hague Convention as a 
tool to encourage foreign governments to return the child, 
custody is most likely to be decided to a foreign court order 
using the child's presence there.
    As Ms. Apy noted, I wanted to also highlight that the 
Convention is not, however, supposed to be a custody-
determining document. It is not a regime to decide where the 
child should live and what is the best overall outcome. It is a 
document to determine what court has the jurisdiction to decide 
the case. And, as you noted in your testimony, this seems to be 
an issue also of great confusion among a lot of the states that 
have signed the Hague Convention. And to me, it seems to be a 
matter of needing substantially additional training and 
guidance that our Government can be involved in, other 
governments might be involved in as well, but that needs to be 
centralized and organized through the Hague Convention in the 
Netherlands.
    I did want to talk about the Department of State. In 
studying this issue over the years, I have heard negative 
experiences faced by left-behind parents and their attorneys. 
There have also been, as you know, a number of changes at the 
Department of State. And I would like to talk about those.
    But I must say, having heard the testimony today, that I am 
very saddened to hear that some of those changes have not 
impacted these families or that the impact is not as visible as 
it should be. And so I think there is no doubt that this 
committee, the State Department need to continue to do the hard 
work of trying to figure out how to get this system right.
    Parents are still not feeling that they are being serviced; 
that their needs are being taken as seriously as they ought to 
be; and, as we have noted, that they have an advocate on their 
behalf.
    I will just highlight some of the structural changes, 
however. As the committee may be aware, the Special Advisor for 
International Children's Issues has been appointed. And 
although this is and it's currently held by Ambassador Susan 
Jacobs, it is also a position designed to help elevate this 
issue, help coordinate between the Secretary of State's Office, 
the Office of Children's Issues, and other aspects of the State 
Department.
    I understand, Mr. Smith, that you have a proposal for an 
even higher-level ambassador and potentially a new office. And 
I am happy to look at that.
    I think that this initial position has, from what I have 
been hearing, helped garner attention. And I think this 
ambassador has been able to play a particular advocacy role in 
the diplomatic community that has been important, but there 
might be enhancements, either in changing the position or 
changing her powers that might be useful as well.
    Case management has also been restructured to some extent 
at the State Department. In the past, there were the last few 
years about 20 Foreign Service officers who handled the heavy 
caseload of about 150 cases a year. That has now changed and 
they now have up to about 100 officers. Not all of them are 
Foreign Service. Some of them are Civil Service. And they now 
handle no more than 75 cases.
    We should be seeing improvements in the reports from the 
families as a result of this. And so I think it is a concern 
that we are not. And I am particularly concerned that this is 
some of what I heard when I was working on the committee as 
well.
    I think when you meet with the State Department, I believe 
that they are very earnest. I think that the people who are 
working on these cases do understand the importance of what 
they are doing and are putting forth their best efforts for 
these families, but there is a gap to be bridged.
    Because of their perceptions or your perceptions as 
policymakers and as people looking at oversight of the agency, 
you are going to hear different things on one side. And then 
you are going to hear another set of things from the families.
    I would encourage the committee to consider possibly having 
the State Department testify on this issue and be able to 
explain some of their limitations. For example, there are 
several notes about the State Department not providing families 
information on how they contacted the abducting spouse or 
identified where the child was.
    I suspect that there are limitations on the State 
Department officers around that. There might be other 
limitations, as has been discussed under Privacy Act issues. 
And it might well be that legislation needs to overturn some of 
that. But I think it would be helpful if there is a way in 
which--and I'm sure that many have been asking for this for 
years, but if you can still look to bridge this gap so that the 
families feed like they are getting the information they need, 
they understand better the bureaucracy of the State Department, 
and they also don't look to the State Department as their 
adversaries but as their friends, because I think in the end, 
only by working together through the administration at the 
State Department, Congress, the families, the nonprofit 
organizations, the attorneys involved, as Ms. Apy noted, there 
have been tremendous strides. And I think more can continue to 
be done if everyone tries to stay on the same team.
    I had a few comments about Japan, which I am going to 
shorten tremendously since I think it has been very well-
covered, but I will say that I have been told that the Embassy 
of Japan in the last year or so has become more engaged with 
this issue.
    In fact, the day that I met with them was the day that the 
Sean Goldman story broke on the news while I was in a meeting 
with the Embassy. And at that time--this is several years ago--
the concept of how to work on the Convention and what to do was 
one that they responded to with some vagaries. And they noted 
that it was being looked at at the Ministry of Justice, but 
that was the same answer that had been given for several years.
    Now I understand that they are more aggressively involved 
in discussions here in the United States about Hague 
Convention, but what I haven't heard yet is that they are more 
aggressively involved in discussions about individual cases.
    So I would reiterate what you, Ms. Apy, and others have 
said, that absolutely as they go forward, there has to be a 
decision around the existing cases and there has to be, whether 
it is in the Hague Convention, accession, or in some other 
document, an agreement.
    And, of course, we have as primary interests the American 
children, but there are children in many other countries, from 
many other countries, who are in Japan. And so this is an 
internationally concerning issue.
    I will just add that I was asked by Congressman Payne if I 
could make some comments about Africa. And given the committee 
that we are speaking with, I would like to do that.
    Most of the nations in Africa are not signatories to the 
Hague Convention. At present, the United States only has four 
partners to the Convention there: Zimbabwe, South Africa, 
Mauritius, and Burkina Faso. And they face unique challenges 
there, both in terms of identifying where children are; 
operating with the central authorities in those governments; 
and, in particular, operating in governments where there is no 
Hague partner.
    The road to accession of the Hague Convention is also 
challenging in some of these African nations, where there are 
problems with inefficient and ineffective government structures 
that have hampered the consideration of the treaty.
    In addition, the Hague Convention does have a project on 
Africa to look at this issue and try to make strides in that 
region of the world. But there has been an identification at 
least that because of the critical role of personal 
relationships in Africa--and I have heard that this is also 
played in large part in Asia--that having a real regional 
approach that is individually based is important.
    So having a conference in the Netherlands or in Washington, 
DC, is not going to help get countries in Africa to start 
looking at the Hague Convention. It will require a lot of 
direct outreach on an individual level.
    I will note that children abducted to Africa, the profiles 
of their cases look somewhat different. The Africa cases tend 
to be of African immigrants who have come to the United States, 
either temporarily or permanently, where both parents are from 
an African nation and the child is abducted by one parent, 
taken back to the home country, and is often left with extended 
family. Grandparents, aunts, uncles, or people living in the 
United States would be considered friends but are very much 
relatives in the construct of an African family.
    And there are a small number but a notable presence of 
cases where female genital cutting is a concern of the left-
behind parent. As you can imagine, the logistics when a child 
disappears in countries where there may not be sufficient 
infrastructure, where telecommunications are still developing, 
despite the availability of cell phones, where the Internet 
might be spare, is a challenge not just for the State 
Department following up on cases but very much a challenge for 
the left-behind parent. And, of course, challenges in the weak 
judicial systems that exist in many of these countries is also 
a problem.
    Also--and this is getting to my last point on this--the 
left-behind parent as African immigrants here in the United 
States faces challenges because of that status as well. They 
tend to not necessarily live in large communities of African 
immigrants. It is different from, for example, being a Mexican-
American living on this side of the U.S. border and near the 
border, where there might be lots of Mexican-Americans and lots 
of resources to help support you and learn more about how you 
can politicize or get media attention for your issue.
    So getting attention from law enforcement, getting 
attention from the legal system, and interacting with the 
political system of the United States, Congress, but even at a 
local level state and local politicians is much more of a 
challenge. And so what I have heard and my understanding from 
speaking with some people in the agency is that these cases are 
not getting that kind of attention, and they're not getting the 
kind of advocacy that has, fortunately, been developed around 
some of the cases in Asia and Europe and other places among the 
family.
    Lastly, I will just note that I do have a number of 
suggestions of response from Congress. I would just like to 
note a few. There has been a GAO report on this issue. It was 
done in 2000. I think the issue is ripe for a review by GAO, 
although, in truth, you might also--because of the time that 
GAO takes, you might want to also look at an independent 
report. The State Department has at times been given funding to 
issue a grant and to an independent report from an outside 
attorney or set of attorneys. There might be a way to do 
something like that to really effectively look at this issue of 
communication between the parents and the agency and, really, 
everything about what the State Department is doing on this.
    But, in truth, I think that, as I have noted, there are 
areas of cooperation with the Department of Homeland Security, 
areas of cooperation with the Department of Justice that are 
important to look at, too, and what we heard today about TSA.
    And we know the problems with the exit system. But there 
are, for example, ways to flag a U.S. passport. Maybe there are 
ways that a U.S. child's name can be flagged with the airline, 
regardless of what country the passport comes from. That still 
might be thwarted when the name of the child is changed, but as 
it is right now, if an airline brings a person to the United 
States who does not have a visa, the airline has to pay a 
penalty to the United States and has to return that person at 
the airline's expense. So there is a disincentive for them to 
allow people on the planes without appropriate passports and 
visas.
    Maybe there is a similar way to create a list of children 
who should not be traveling internationally. It is very tricky, 
but I think that having some sort of discussion between the 
State Department, the other agencies, and Congress, it is 
almost more of a working group approach involving families and 
maybe these hearings at the beginning of that, where you can 
start to tease out and work on how some of these ideas could be 
brought into policy, they could improve the overall operations.
    And my last point would just be that I think the thing that 
I would love to see Members of Congress do more of and that I 
know you're a master of, Chairman Smith, is to make sure that 
these issues get mentioned to every foreign dignitary that the 
members meet with.
    I don't necessarily mean every country, but if there is a 
country--if the committee pays attention to these issues and 
knows, for example, that one of the vast majority of our cases 
is with Mexico, then when the Mexican officials are here, it 
can be raised. And it can be raised by one member or in a 
larger setting. But I think that would help a lot. And, as we 
have seen, your attention to this issue has been a tremendous 
help for these families.
    So thank you.
    [Applause.]
    [The prepared statement of Ms. Wells follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Ms. Wells, thank you very much.
    Mr. Eaves?

 STATEMENT OF MR. JESSE EAVES, POLICY ADVISOR FOR CHILDREN IN 
                      CRISIS, WORLD VISION

    Mr. Eaves. Thank you very much, Mr. Chairman.
    Mr. Chairman and Ranking Member Payne, thank you for 
holding this hearing today and for inviting me. I, you know, 
want to acknowledge the incredibly generous amount of time you 
have given to this topic. So I will be very brief and summarize 
my remarks and just ask that my full written statement be made 
a part of the record.
    My name is Jesse Eaves, and I am the Child Protection 
Policy Advisor for World Vision USA. World Vision is a 
Christian relief, development, and advocacy organization 
serving millions of children and their families around the 
world, in nearly 100 countries. This work includes programs 
that work to prevent and respond to abuse, neglect, 
exploitation, and violence against children; and advocating for 
effective systems and laws that can provide a safety net for 
vulnerable populations.
    Today I have been asked to bring a global perspective on 
child protection, especially as it relates to preventing and 
responding to illegal movement of children, particularly in 
fragile states.
    I want to thank you again, Mr. Chairman, for your 
leadership in working to protect children not only here in the 
U.S. but around the world. You have been behind some of the 
most important pieces of child-focused legislation in our 
nation's history, and the child protection systems within our 
country are stronger for it.
    As this hearing has shown, powerfully so, we still have 
more to do. And that is also, sadly, the case for the vast 
majority of countries around the world. Of particular concern 
are those countries in a post-conflict or post-emergency 
context where children are often found at their most vulnerable 
state. And informal and formal systems that should protect them 
have either failed or never existed to begin with.
    This hearing provides an important opportunity to address 
not only how the United States can deal with issues like 
international child abduction but also opens the door to put 
systems in place that can prevent and respond to all cases of 
abuse, neglect, exploitation, abduction, and violence against 
children.
    Governments in fragile states are often unwilling or unable 
to provide the formal services or support the informal 
mechanisms required to protect their most vulnerable 
populations.
    The issue of identification documents is of extreme 
importance. In fact, something as simple as birth registration 
can determine whether a child remains in the care of those who 
love them or slip through the cracks, never to be seen again.
    For example, the birth registration rate in Sudan is around 
33 percent. In South Sudan, almost 300,000 people have returned 
to join nearly 10 million Southern Sudanese to take part in the 
creation of a new country that already has an incredibly low 
capacity to handle such an influx.
    With an estimated 60 percent of returnees being under the 
age of 18, a lack of birth registration and identification 
documents means that unaccompanied and separated children are 
less likely to find a caring home and are extremely vulnerable 
to abuse.
    We now see homeless child populations increasing in urban 
centers, particularly in the southern capital of Juba. With no 
identification and no way to find their families, these 
children are extremely vulnerable to abuses that include 
abduction, recruitment into armed militias, and sexual or labor 
exploitation.
    Having proper documentation and officials trained in how to 
identify suspicious behavior is crucial to protecting 
vulnerable children, especially in fragile states. Since the 
January 2010 earthquake in Haiti, many organizations including 
World Vision and others, like our partner organization 
Heartland Alliance, have worked to train border guards to 
prevent the illegal movement of children.
    There have been several documented cases where trained and 
alert Haitian officials were able to stop children from being 
taken illegally across the border. In one case, a 13-year-old 
girl was found with a man who could provide no proof of 
relation. The girl was placed in the family-tracing system. And 
her mother was able to come and provide proof that she was 
indeed related to the girl and had not intended for her to be 
taken anywhere, let alone out of the country.
    In this and in so many other cases, the importance of 
documentation and officials implementing protection policies 
have meant the difference between a happy reunification and a 
life cut tragically short.
    Just to conclude, the U.S. can and should play a central 
role in encouraging countries as they work to protect their 
most precious resource of their children.
    Mr. Chairman, last year you introduced a bill that is a 
prime example of how the U.S. can take a systems-strengthening 
approach in its engagement with other nations. The Child 
Protection Compact Act aimed to foster partnerships between 
countries and strengthen the very institutions that are crucial 
to the protection of all children.
    Legislation like the CPCA can play a crucial role in 
providing a safer world for children. And we look forward to 
seeing similar legislation in the future. We also look forward 
to working with you to ensure that every child can live life in 
all its fullness.
    So thank you again for your leadership, Mr. Chairman and 
Ranking Member Payne. And I'll be happy to address any 
questions.
    [The prepared statement of Mr. Eaves follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Eaves, thank you very much for your 
testimony and the great work you and your organization do.
    Let me ask just a few questions and maybe on Japan, to be 
very specific. I only note parenthetically that we plan on 
having a Japan-specific hearing because I do think that it is 
not--I can't say that it is likely, but it is very possible 
maybe that in anticipation of the G-8, maybe a day before, a 
week before, Japan will announce that they are going to sign 
the Hague. And, of course, the big question will be, what are 
the conditions, the terms and conditions, the reservations?
    And, as I think, Ms. Apy, you said so eloquently, you know, 
there needs to be an MOU drafted which includes an immediate 
protocol for resolution of existing cases involving children 
alleged to have abducted to Japan and abducted within Japan as 
well as Japanese children alleged to have abducted to the 
United States.
    You and I, when we were in Japan, made that argument 
repeatedly. We have done it here. You made it, like I said, 
very eloquently. I wonder how our other witnesses might feel 
about that, because my deepest fear will be Japan gets all of 
the accolades, praises heaped upon them by the other G-8 
leaders for its commitment and then when it comes time to 
implement, all of the existing families are left behind and 
that which is agreed to becomes Swiss cheese, so to speak, 
because it is riddled with loopholes.
    Ms. Wells, would you want to start or would you want to 
start on that, Ms. Apy? It seems to be absolutely basic in my 
opinion.
    Ms. Apy. Right. I think that there is a genuine concern 
given what I have seen as projected reservations that if there 
is not some dialogue immediately generated and some objective 
assistance and criteria provided that, first of all, this 
process will go on without having a meaningful treaty 
relationship, if we accept their accession given the number of 
reservations that it appears will be there, it will effectively 
be different than the protections afforded by the treaty.
    I think that there are legitimate issues that the Japanese 
have to address in their own domestic law that are so daunting 
that the advantage of carving out an opportunity in an MOU 
bilateral agreement so that some of those issues can be worked 
through will not only benefit the United States relationship 
but in the meeting that we had--and this would be what I would 
close with--the meeting that we had included representatives of 
other countries to Japan, including the Pacific Rim and Europe, 
all of whom were wildly positive on the concept of using an MOU 
in this context in order to set forth reasonable criteria and 
approach that on a multilateral level.
    So, again, I think that by using that type of protocol, it 
could actually narrow the number of reservations that the 
Japanese would have to take and strengthen the possibility of 
true reciprocity.
    Mr. Smith. Ms. Wells?
    Ms. Wells. I agree, as I noted earlier, that absolutely 
there has to be some agreement to handle existing cases. And, 
in truth, when any country joins the Hague Convention, that is 
what we would want to see. And we know, in particular, because 
of the challenges in Japan and how intractable those cases have 
been, it is particularly important.
    I think that I should add that in the past I have testified 
that I thought the notion of doing MOUs with countries where we 
were having trouble making agreements was a good idea. I have 
since heard that the State Department has thought that some of 
those MOUs have not been as effective as they should have been. 
So I would urge the committee to look at that question of what 
makes the MOU effective.
    And if we can get an MOU--and it might be the right 
vehicle--how do we ensure that it is one that will have the 
force and will secure the rights of these left-behind parents 
and ensure that their children are covered as we wanted to 
because if we can't get sufficient assures through the Hague 
process, that the Government of Japan may go through--you know, 
if it's something that they don't want to agree to until they 
really want to agree to it, they can do another agreement that 
doesn't really have the force that we want it to have.
    So I just think it's a matter of--and, you know I would 
certainly defer to Ms. Apy's view because she certainly--I 
haven't seen, for example, the potential reservations. And she 
is much closer to this issue.
    That might be the right way to go. I just think that we 
should look at how MOUs are working for the State Department 
and what would it take to make this particular MOU effective.
    Mr. Eaves. Thank you, Mr. Chairman. I have no comment.
    Mr. Smith. Let me ask all of you, or first, Ms. Wells. You 
mentioned dual nationals, children who happen to be dual 
nationals, might be a more complicated factor. Maybe you can 
elaborate on why that is the case.
    You also mentioned that the Hague Conference--that there 
needs to be, perhaps, additional oversight in improvements. Do 
you have any specific ideas, Ms. Apy? I mean, three decades 
into the treaty, hopefully there is a lessons learned area 
where upgrades could be made.
    I would just point out parenthetically that I would agree 
that the State Department people at OCI and the consular 
officials in country after country are earnest. It is not a 
competence issue. They are very smart. To be FSOs, obviously, 
they need to be very intelligent. And they are well-trained. I 
would argue that the problem is primarily the fact that they 
don't have the requisite toolbox to do the work.
    One of the reasons why our legislation, H.R. 1940, has been 
introduced is to take a lessons-learned from all of the other 
human rights issues where we had been very effective--
trafficking, and certainly on religious freedom--and take those 
tools, those penalties, if necessary, and apply them to 
countries. So it's a country-to-country fight, not an 
individual versus an indifferent or an enabling country or 
worse, actually, you know, very much on the side of the 
abductors and to make it an issue where you can get 
resolutions.
    And I have found that 31 years in human rights work, you 
don't get compliance without penalties. It doesn't happen. So 
you might want to speak to that end of it as well.
    Ms. Apy. I would. Let me talk about a precise example. In 
the David Goldman case, the case was brought before the Supreme 
Court of Brazil because there was a lawsuit filed by a 
political party, which sought a preliminary injunction 
preventing any child from any country being returned under the 
Convention. That was completely stopping all of the processes.
    The United States Department of State took the position 
initially that the Hague Conference should respond because of 
the issues of enforcement and some of the issues that were 
raised in my colleagues' testimony that they are a more 
appropriate global body to review the issues of enforcement.
    I had my doubts. And, in fact, what ended up--because the 
Hague Conference has never taken the position that they will 
act as an arbiter of reciprocity, they were opposed to looking 
at enforcement in the context of global reciprocity issues, and 
not as distinguished from enforcement in individual cases, and 
additional language, where we have treaties already that have 
already been drafted.
    And so we waited. There was a 42-hour window in which the 
Hague Conference had to provide briefing in support of not just 
the David Goldman case but all similarly situated children from 
all countries. With less than 12 hours before the filing, they 
declined to file a brief.
    Now, happily, having anticipated this as a possibility, we 
prepared a brief with the able assistance of the Consul General 
of the United States in Brazil. And that brief was filed by the 
United States of America.
    However, it is a good example of the reticence because of 
the policymaking and educational components of the Hague 
Conference. I respectfully believe that reciprocity is not 
going to be evaluated substantively by the Hague Conference. I 
think they do not see that as their role. And I don't think 
they are going to take it on.
    I think if we in the United States develop an objective 
template in order to assess and inform on the issues of 
reciprocity, that will be endorsed and joined by other nations. 
Very frankly, no one wants to act in a way that is not 
cooperative or can't we all just get along, but the truth of it 
is that somebody has to take the step to lay out and call out 
the issues of reciprocity.
    Our report on this subject is the only one issued by any 
country in the world right now.
    Mr. Smith. Yes?
    Ms. Wells. I certainly wouldn't argue with that. I think 
that she makes excellent recommendations. And my comments about 
oversight were mainly in response to some of the research and 
reading I have done on this issue.
    There are various suggestions on how to solve it, but I 
think the practicality of how the conference actually works and 
this issue of our country possibly being the one that needs to 
take a lead and possibly having other countries then agree once 
they see our country taking that leadership role, that might be 
the most effective way to do it.
    I mean, there are also ideas of having an office that would 
do oversight within the Hague or that you could potentially 
have something like an ombudsman. I think all of those are 
areas that just need to be examined further. And I just wanted 
to certainly raise them to the subcommittee's attention.
    On the issue of dual nationals, you know, as I noted, most 
of these cases become one of dual nationality. Often other 
countries, as the United States, will recognize and give 
national citizenship to a child of a parent born in that 
country. So if it doesn't happen before the abduction, it 
happens later.
    I think part of the issue that has come up in some of the 
testimony and that I certainly had heard about before is the 
issue of the Embassies giving new passports. And that is a real 
challenge for the State Department. In truth, it is a challenge 
for us as a country because we do need diplomatic relations 
with other countries of the world.
    And we can't have a situation where the United States can 
absolutely tell some country, ``You are not allowed to issue 
passports. You are not allowed to issue visas.'' They will do 
the same to us. And then we won't be able to do the things we 
do outside of our own borders.
    But I do think that that is something again for the 
committee to look at and discuss with State Department and 
other agencies. How can we talk to these Embassies better about 
their own processes? And how can we either explain or urge to 
them that, you know, if we can prevent these cases from 
becoming cross-border cases in the first place, we can work 
with their governments to come up with a fair resolution.
    So, you know, especially if it's a Hague country, you don't 
necessarily have to issue a false passport. You know, if the 
courts, if our courts, review it appropriately and that child's 
habitual residence is in the foreign country, that court will 
be given the jurisdiction to decide the case.
    So on the toolbox issue, I did want to just note one thing 
where I think one of the witnesses noted that the State 
Department should be coming to Congress saying, ``Here is what 
we need.''
    I would only highlight, I guess, as a former staffer that I 
know sometimes that can be very complicated for the agency. As 
you know, the way our bureaucracy works, especially at a time 
of budget cuts and challenges, part of what we are all talking 
about here is making sure that this issue gets elevated. But 
there are a lot of things that the State Department has to come 
to Congress for.
    I think that one of the benefits of the way our system 
works is that as members and as staff, your staff can raise 
ideas in meetings and they can get filtered and bounced around. 
And sometimes whether they like to or not, they might be the 
right thing to do.
    I do think that the nature of the communications between 
Congress and the State Department might make it hard for some 
of the people in the agency who know what they need to be able 
to come forth and say, ``This is it exactly'' because it is a 
lengthy process they would have to go through to get that 
clear.
    Mr. Smith. Let me just conclude and ask unanimous consent 
to include a brochure from BACHome, Bring Abducted Children 
Home. Paul Toland, who has testified at one of our previous 
hearings, makes a number of points, he and the group, ``Japan 
must immediately return the stolen children. Japan must provide 
unfettered access to our precious children. Number three, Japan 
must enact retroactive laws.''
    They have a very good series of recommendations with 
regards to Japan's Hague implementation legislation, it must 
meet the spirit of the Hague and really come down very hard on 
the fact that allegations of domestic violence must be 
accompanied by rules of evidence, that hearsay has no place in 
denying a child even access to his left-behind parent.
    ``Japan must unambiguously define the best interests of the 
child.'' And, then, very importantly--they're all important--
``Japan must immediately locate our missing children.'' And 
they list names, as was mentioned earlier.
    There are a number of American children who have been 
abducted and wrongfully retained who are unaccounted for and 
whose present location is unknown since the earthquake, 
tsunami, and the ongoing nuclear disaster, adding incredible 
pain and agony to existing pain and agony. They don't know what 
has happened to their children.
    Mr. Payne?
    [Applause.]
    Mr. Payne. Thank you.
    Ms. Apy or Ms. Wells, either one of you, I wonder if you 
can tell us what impact, if any, has United Nations Convention 
on the Rights of the Child or its optional protocol, on the 
sale of children had on preventing international child 
abductions? And do you think the Convention is a valuable 
mechanism for addressing this issue?
    Ms. Wells. I am going to defer to Ms. Apy on this.
    Ms. Apy. So I understood the question, you were referring 
to the United Nations Convention.
    Mr. Payne. On the Rights of the Child or its optional 
protocol on the sale of children, which----
    Ms. Apy. Well, the optional protocol certainly has had an 
extraordinary impact on international law and customary 
international law.
    Of course, I feel the need to respond. And that is quite a 
sticky question, Congressman Payne, because the United Nations 
Convention on the Rights of the Child, of course, has not been 
ratified by the United States of America.
    And so I can assure you when I stand in another country, as 
I have often, and begin to litigate a case, if the child is 
considered a dual national, you may be assured that a judge 
glares at me over their glasses and says, ``Now, could you 
please explain to me why the United States Congress takes the 
position that it does with regard to the United Nations 
Convention on the Rights of the Child?''
    I will also tell you, having written on this subject and 
spoken on it, that I personally take the position--and this 
position is a policy of the American Bar Association as well--
that the United States should, in fact, be a signator to the 
United Nations Convention on the Rights of the Child. And this 
would be yet another example of why because I would not want 
the argument made, as is often made, that there are protections 
associated with the UN Convention that are somehow broader than 
protections provided under United States law. And, as a result, 
a child should not be returned to the United States.
    The area of customary international law in child rights 
issue is complex. I will assure you that in the most recent 
meeting at the Hague Conference, which dealt with child 
trafficking, that very issue was raised, particularly as it 
related to the alternate protocol, particularly as it related 
to child trafficking in the context of adoption. And that again 
is a sophisticated interplay of international legal issues that 
weigh heavily on countries in Africa and Central and South 
America.
    So, again, I think it is a huge issue, to some extent 
beyond the scope of our discussion today but a discussion that 
needs to take place.
    Mr. Payne. Can you tell me what other countries have not 
ratified the Convention? There aren't many.
    Ms. Apy. This is the second question the judge----
    Mr. Payne. Even Burma?
    Ms. Apy [continuing]. Asks me, by the way. It is equally 
uncomfortable. It had been Somalia, and that's it.
    Mr. Payne. Okay. Well, we have to be careful about the 
company we keep, right?
    Ms. Apy. Indeed, sir.
    Mr. Payne. Do you know about the land mines treaty offhand? 
I know we haven't ratified that. Do you know how many countries 
have not ratified that one?
    Ms. Apy. I don't have that information. Perhaps my 
colleague.
    Mr. Payne. How about combat for children soldiers, the 
under 18 military? We haven't ratified that either.
    Ms. Apy. Yes, sir, we haven't.
    Mr. Payne. And there I think is only one other country, 
too. And I just bring that out because we are the land of the 
free, the home of the brave.
    We are the leaders of the world. There is no question about 
it. It is the greatest place in the world. However, we leave 
ourselves open to criticism when we go into national courts. 
And we haven't even ratified a fundamental thing, protocol like 
the rights of the child.
    Now, I am sure there is some legalistic reason why. Well, 
first of all, many people just don't like treaties. I was glad 
that Mother's Day came up years ago because if we had to bring 
it through Congress, maybe it might not pass because it was 
international. So we do really have to work more on own image 
as we argue these very sensitive issues.
    Our time is running. Votes are coming. Let me just ask, Mr. 
Eaves, have parental abductions of children been documented in 
African countries? And to what extent do you think this is an 
issue for U.S. policy?
    Mr. Eaves. It's a good question, Ranking Member Payne.
    I am not clear as to the exact statistics. We definitely do 
see cross-border movement. For instance, in countries where you 
have had a refugee population in a particular country, so if 
you have Sudanese living in Uganda or, say, Sierra Leoneans 
living in Cote d'Ivoire, there have been cases where you see a 
parent take a child across the border, leaving another parent 
behind.
    I am not certain of the role that the U.S. plays there, but 
we know that it does happen. And it is equally tragic there, as 
it is here.
    Mr. Payne. Also, we do know that in some countries in sub-
Saharan Africa, you do have some traditions in some Sahel 
countries, where you have this hereditary servitude and 
adoption into slavery, where their practice--this happened in 
Sudan, as I mentioned before, the Dinkas and the Nuba people 
that were put into indentured servitude by the Khartoum Bashir 
Government of the North.
    Have you gotten into a discussion in regard to customs of 
countries where, for example, in Haiti, a person who is very 
poverty-stricken may turn their child over to a wealthy Haitian 
to simply work as a servant, which is not abduction? However, 
it is not nice either. Have you dealt with any of those issues? 
I think they call it restavec in Haiti.
    Mr. Eaves. Yes. Yes, we have, in both Sudan and in the 
Haitian example you mentioned, yes. The restavec system has 
been an incredibly pervasive and harmful practice that we see 
in Haiti. And the main way that we addressed that is working 
with the families that find themselves in such desperate 
situations. You know, so often in cases of extreme poverty, a 
child can become either a source of income or a drain on 
income.
    And sometimes the parents think they are doing their child 
a favor by delivering them over to a wealthy family, assuming 
that their child will receive education in exchange for doing 
some kind of domestic work.
    Sometimes that is exactly what happens, but far and away, 
the majority of examples show that these children are taken. 
They are kept against their will. They are forced to work long 
hours, often doing dangerous work. And sometimes they are even 
sexually exploited as well.
    So we work with those poor families to ensure that they 
have the ability to earn an income that can allow them to 
educate their own children and protect their own children 
because I think, as we have heard time and again today, the 
best place for a child is in their parents' loving arms.
    Mr. Payne. Just finally, running out of time, I know there 
was a lot of controversy with the Madonna's adoption case you 
recall several years ago. And you had people on both sides of 
that issue. Of course, recently actually, about a week or so 
ago, we had a hearing on China.
    And one of the international organizations said that he 
would urge the ending of adoption of Chinese children because 
he felt that some of them might be abducted or taken away from 
families and, therefore, improperly put up for adoption.
    And so I know this question of adoption becomes very 
sensitive. I hear some people say, ``Well, if they can get a 
better life somewhere else, well, why not let them go out?''
    Others say, ``Well, if you take them out of their own 
culture, are you really doing it better for them or not?''
    So I just wondered, to what extent are there concerns 
related to international adoptions in your opinion or from any 
research, for example, pertaining to fraud and 
misidentification of children, often selling children to 
adoption agencies?
    Mr. Eaves. Congressman Payne, we definitely believe that 
adoption could be a very beautiful and wonderful thing to 
happen.
    One thing, when we're talking about international 
adoptions, we always want to make sure that, indeed, that that 
is the only option left available to the child. Oftentimes we 
have found that if there is one or more parent still living, 
working with that family to see if they can still care for that 
child; if that is not an option, looking to see if there is 
another family member that can care for the child, then looking 
toward foster care or domestic adoption. And if that won't be 
in the best interest of the child, then you look at 
international adoption, which, like I said, can be just a 
wonderful thing for all parties involved.
    What we have seen is that especially unwittingly on behalf 
of Americans that may adopt, a case of adoption could be a case 
of unknowing abduction. And there can be fraud in the process. 
And so that is why it is so important that those safeguards are 
in place in countries all over the world.
    It is important for those processes to work effectively and 
efficiently but always looking to ensure that the best 
interests of the child are placed first and foremost and that, 
wherever they end up, they will be in a loving, caring 
environment that will allow them to live out their life in all 
of its fullness.
    Mr. Payne. Thank you very much.
    Mr. Smith. Thank you very much, Mr. Payne. I want to thank 
our distinguished witnesses. I actually have a number of 
additional questions, but there is a vote out and we have 2 
minutes to report to the floor. And there will be a series of 
votes.
    I will announce again that we will have a whole series of 
hearings on this, hopefully a markup in the not-too-distant 
future on H.R. 1940. I can guarantee you I will not cease to 
support those who support the legislation until it is law, no 
matter how long it takes and no matter how much pushback we 
get.
    I would also note that we will have a Japan-specific 
hearing, especially surrounding issues of Hague accession and 
whether or not in the small print there is duplicity and 
especially to address the left-behind parents who would be left 
out, once again, should they not be included in an MOU or some 
other mechanism to provide inclusion and resolution of their 
particular issues.
    Would you like to add anything very quickly before we 
close?
    Ms. Apy. No thank you, sir.
    Mr. Smith. Thank you again for your extraordinary service 
and leadership.
    I would also just ask unanimous consent that additional 
statements that individuals have requested be submitted for the 
record be made a part of the record. And if left-behind parents 
who are here would like to submit their testimony or statement, 
we will include that as well, but it needs to be done rather 
quickly. And it needs to be eight pages or less.
    And, finally, we will be reaching out to you again for 
another hearing because this issue has to rise in its 
visibility and not ebb or diminish. Thank you.
    [Applause.]
    [Whereupon, at 6:19 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<n-iden-3><pound><box> stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               <greek-l>Global Future deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Mr. Burns deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Collins deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Makielski deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Morehouse deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Richardson deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Sylvester deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Toland deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Trombino deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Weed deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               <greek-l>Wong deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
